        INSPECTOR GENERAL
      DEPARTMENT OF DEFENSE




SEMIANNUAL REPORT TO THE CONGRESS



  April 1, 1999 through September 30, 1999
          Mission Statement
The Department of Defense
Inspector General promotes national
security and integrity and credibility in
Government by conducting objective
and independent audits, investigations,
evaluations and other activities to
prevent, detect and help correct
problems in DoD programs and to
identify opportunities for improving
efficiency and effectiveness.
Semiannual Report to the Congress                                                                                                 Table of Contents




                                                TABLE OF CONTENTS
HIGHLIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               i
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       i
      Year 2000 (Y2K) Conversion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    ii
      Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               ii
      Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               ii
      Other Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        ii

CHAPTER ONE – REDUCE HIGH RISK VULNERABILITIES . . . . . . . . . . . . . . . . . . . . .                                                               1
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
      Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
      Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                2
      Infrastructure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       3
      Information Technology Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            5

      Special Emphasis Area--Year 2000 Conversion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    7
          Previous Assessments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  7
          Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        8
          Y2K Readiness of Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       8
          Y2K Readiness of Processing Platforms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              9
          Contingency Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                9
          Outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        10
          Summary. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          11

      Special Emphasis Area--Contract Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     13
          Defense Purchasing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                13
          Fraud. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      13
          Procurement Strategy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                14
          Defense Contract Audit Agency Support to Contracting Officers . . . . . . . . . . . . . . . . . .                                           15
          Encouraging Competition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    18
          Other Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          18
          Summary. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          19

CHAPTER TWO - SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                              21
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      21
      Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             21
      Hotline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   30
      Administrative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 31
      Criminal Investigative Policy and Oversight. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          36
      Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    37
      Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           39
Table of Contents                                                                            Semiannual Report to the Congress




APPENDICES
    A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . .                              A-1
    B. Inspector General, DoD, Audit Reports Issued Containing
       Quantifiable Potential Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                B-1
    C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   C-1
    D. Contract Audit Reports Issued. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          D-1

FIGURES
    1.  Mission-Critical Systems Completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 9
    2.  Processing Center Domains Completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   10
    3.  Number of Procurement Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             14
    4.  Dollar Value of Procurement Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               15
    5.  Major Contract Values by Selected Categories . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    16
    6.  Defense Criminal Investigative Organizations Case Results. . . . . . . . . . . . . . . . . . . . . .                            22
    7.  Whistleblower Reprisal Inquiries/Investigations by Category of Employee -
        Open as of September 30, 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           33
    8. Military Whistleblower Reprisal Inquiries by Office Conducting Inquiry -
        Open as of Sepember 30, 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            33
    9. Program Integrity - Nature of Substantiated Allegations Against Senior
        Officials During 2nd Half FY 99 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           35
    10. Program Integrity - Senior Official Inquiries Open as of September 30, 1999 . . . . . . . .                                     35
                                         FOREWORD
It is my pleasure to report on the accomplishments of the Office of the Inspector General,
Department of Defense, for the period April 1, 1999 through September 30, 1999. This Semi-
annual Report summarizes significant Department-wide audit and investigative efforts. Oversight
projects relating to the intelligence community are discussed in a separate classified annex.

The Highlights section provides an overview of the most significant issues discussed in the report.
Chapter One contains brief updates on what we consider to be the Department’s principal high-
risk areas. We have also included more detailed discussions of two special emphasis areas: Year
2000 (Y2K) Conversion and Contract Management. Chapter Two contains discussions of other
important audit and investigative efforts that took place during the period, again resulting in
significant criminal prosecutions and the identification of large dollar savings and recoveries.

This has been an extremely busy reporting period, with Y2K conversion matters receiving our
fullest attention. Auditing Y2K conversion has required significant reprioritization of our
resources and coverage throughout 1998 and 1999, with nearly 180 audits performed. The very
positive responses we have received to our efforts in this critical area from the Department, the
Office of Management and Budget, the General Accounting Office and the Congress indicate that
our extensive work was warranted and useful. As this report illustrates, our efforts with the
Department in the area of contract management and our ongoing work with the Defense Contract
Audit Agency also have been productive and beneficial.

In our last report, I indicated that we were successful in gaining support within the Department
relative to our resource shortages and, absent unplanned reductions, we would be able to meet our
statutory mission for audit and investigation of high-risk programs. Although the Department
budgeted for additional resources that were sorely needed, the Congress reduced our
appropriation request by $3.3 million. We will make every effort to provide the fullest coverage
and support possible, however, this reduction in resources will cause us to delay or forego a
number of critical projects in high-risk areas, such as acquisition, computer security, financial
reporting, disbursing and property disposal. I urge that our requirement for adequate resources be
supported in the fiscal year 2001 budget review, so that we may continue to be responsive to an
ever-increasing workload.

The men and women of the Office of the Inspector General are proud of accomplishing our
unique mission, and remain committed to helping make the Department of Defense a stronger,
safer and more efficient organization.




                                        Donald Mancuso
                                    Acting Inspector General
This page left blank intentionally
Semiannual Report to the Congress                                                            Highlights




HIGHLIGHTS

INTRODUCTION                During the 6-month period ending September 30, 1999, the Office of the
                            Inspector General, Department of Defense (OIG, DoD), continued to
                            place emphasis on reducing vulnerabilities and improving controls in the
                            principal high risk areas in the Department: Acquisition, Financial
                            Management, Infrastructure and Information Technology Management.
                            In addition, the OIG, DoD, focused on two special emphasis areas: Year
                            2000 (Y2K) Conversion and Contract Management.

 Acquisition                In fiscal year 1999, the DoD purchased about $135 billion in goods and
                            services, using more than 250,000 contracts, grants, cooperative agree-
                            ments and other transactions. The DoD internal audit agencies issued
                            25 reports on acquisition management with recommended opportunities
                            for improvement in such areas as verifying the models used to calculate
                            munition requirements, perfoming lease versus purchase cost analysis,
                            avoiding excessive prices for spare parts and ensuring that multiple
                            award task order contracts are not used to avoid competition.

 Financial                  The DoD continued efforts to field the new generation of automated
 Management                 systems that are needed to correct chronic financial management
                            problems. During this reporting period, the DoD audit agencies issued
                            73 reports related to these problems, e.g., an inability to produce
                            auditable financial statements for nearly all major funds and poor internal
                            controls in finance and accounting processes. The risk of Antideficiency
                            Act violations and duplicate payments remains unacceptably high
                            because of the continued inability to match disbursements with valid
                            obligations in DoD accounting records. As of August 1999, the DoD had
                            at least $6.3 billion in problem disbursements that were not properly
                            recorded.

 Infrastructure             The Department has put a high priority on reducing support costs while
                            attempting not to degrade logistics support or the quality of life for
                            military and civilian personnel. The DoD audit community issued
                            82 reports on support programs and participated in numerous logistics
                            reform task forces. There are about 300 reform initiatives in the logistics
                            area, which is an unprecedented level of emphasis on management
                            improvement. Many of these reform efforts include adopting commercial
                            practices and increasing use of web-based information technology.




                                                  i
Highlights                                                Semiannual Report to the Congress




 Information       The challenges faced by the DoD in managing its enormous inventory of
 Technology        systems and networks directly affect all other support areas, as well as
 Management        warfighting. During the reporting period, the DoD audit agencies issued
                   16 reports on information technology issues other than Y2K. This clearly
                   represents a minimal level of coverage for a Department with over 2,000
                   mission-critical systems, nearly 7,000 other essential systems, several
                   hundred ongoing projects, a severe information assurance problem and
                   increasing reliance on electronic commerce.

YEAR 2000 (Y2K)    The Department’s Y2K effort exceeds that of any other public or private
CONVERSION         sector organization in magnitude and complexity with a current estimated
                   cost of conversion at $3.6 billion. As of September 1999, the DoD was in
                   the final phases of its higher level testing program, which includes
                   31 end-to-end tests by function, such as vendor pay or procurement;
                   35 operational evaluations of warfighting systems by the Combatant
                   Commands; and 56 organizationally unique efforts, such as Navy battle
                   group systems integration tests. The DoD Y2K conversion appears at this
                   point to be a success story, largely because of the emphasis applied by
                   the Secretary and Deputy Secretary of Defense. The DoD audit
                   community will continue its quick reaction reporting on Y2K readiness
                   through the end of 1999 and will assist in determining the cause of any
                   significant unforeseen problems that emerge to help identify the lessons
                   learned from the Y2K experience.

CONTRACT           Although the DoD budget declined between fiscal years 1990 and 1998,
MANAGEMENT         the number of procurement actions has actually risen. The DoD
                   procurement arena remains highly vulnerable to corruption. During this
                   period of acquisition workforce downsizing, process changes, new
                   automated procurement management systems and transition to electronic
                   commerce, it is vital that the Department continue to maintain strong
                   controls against fraud. The DoD audit community is working closely
                   with the Department to decrease vulnerabilities in such areas as medical
                   service contracts and other vendor pay.

OTHER ACTIVITIES   During this reporting period, the DoD Hotline received 7,099 telephone
                   calls and letters reporting fraud, waste and mismanagement in DoD
                   operations. The Hotline initiated 936 cases resulting from the
                   information provided. Since 1982, over $418 million have been
                   recovered as a direct result of Hotline inquiries.




                                        ii
Semiannual Report to the Congress                                                          Chapter One




CHAPTER ONE – REDUCE HIGH RISK VULNERABILITIES

INTRODUCTION                The DoD audit, inspection and investigative communities provide
                            essential support to policy makers, managers and commanders across the
                            spectrum of activities where controlling risk, fighting fraud and reducing
                            costs are significant concerns. There is a close correlation between the
                            Department’s strategic management goals, improvement plans and
                            known high risk areas. To the extent allowed by resource constraints, our
                            oversight coverage is geared toward reducing vulnerabilities and
                            improving controls in those high risk areas, which we have discussed in
                            the past several semiannual reports. In this report, we provide updates on
                            challenges and oversight activity in Acquisition, Financial Management,
                            Infrastructure and Information Technology Management. We also
                            discuss two focus areas—Year 2000 Conversion and Contract
                            Management.

ACQUISITION                 In fiscal year 1999, the DoD purchased about $135 billion in goods and
                            services, using more than 250,000 contracts, grants, cooperative agree-
                            ments and other transactions. Due to its huge scale and impact on U.S.
                            military capability, the DoD acquisition program always has been
                            controversial, and there have been nearly continuous reform efforts over
                            the past 20 years to reduce costs and acquisition lead time.

                            The OIG, DoD, and the Defense Contract Audit Agency (DCAA)
                            continued to be heavily involved in the reform initiatives, participating in
                            numerous steering groups and task forces, and furnishing advice to the
                            DoD and the Congress on proposed legislation and regulations.

                            The Defense criminal investigative organizations aggressively pursued
                            cases involving bribery, kickbacks, mischarging, product substitution,
                            false claims and other procurement matters, as discussed in Chapter Two
                            and the Contract Management focus area.

                            During this semiannual period, the DoD internal audit agencies issued
                            25 reports on acquisition management issues. The audits recommended
                            opportunities for improvement in such areas as verifying the models used
                            to calculate munition requirements, performing lease versus purchase
                            cost analysis, reducing weapon system life-cycle costs through design
                            decisions, avoiding excessive prices for spare parts and ensuring that
                            multiple award task order contracts are not used to avoid competition.
                            We are especially pleased that the Congress, Office of Management and



                                                  1
Chapter One                                                       Semiannual Report to the Congress




                          Budget (OMB) and DoD took immediate legislative or regulatory actions
                          to address the misuse of task order contracts that we reported.

                           The Department and Congress also have responded to the need to
“Much more needs to be increase funding for equipment replacement and modernization.
done...to develop useful Nevertheless, the lack of stability in procurement planning remains a
metrics....”               significant problem. Likewise, the Department continues to lack
                           reliable information on the results of many acquisition initiatives
                       taken over the past several years, partially because they are still being
                       implemented. Recognizing the impossibility of fine tuning these
                       initiatives without good performance data, the Department recently took
                       measures to map the flow of acquisition management information related
                       to its acquisition goals. Much more needs to be done, however, to
                       develop useful metrics, and it is vital that reported data be validated.
                       Internal audits would be especially useful in this regard; however, the
                       DoD internal audit agencies lack the resources for a concerted effort in
                       the acquisition area. Many of the audits being performed address specific
                       DoD management or Congressional concerns, such as questions on
                       whether the Navy fully disclosed F/A-18 E/F Hornet test data to the
                       Office of the Secretary of Defense; we found no impropriety. Very little
                       comprehensive audit of acquisition programs is being done, however, by
                       either the OIG, DoD, or Military Department auditors. The lack of audit
                       coverage of many hundred DoD acquisition programs results in many
    F/A-18 E/F Hornet  missed opportunities for early detection of impending program failures,
                       such as on the Army Ground Based Common Sensor.

FINANCIAL                 The DoD continued efforts to field the new generation of automated
MANAGEMENT                systems that are needed to correct chronic financial management
                          problems. These problems include an inability to produce auditable
                          financial statements for nearly all major funds and poor internal controls
                          in finance and accounting processes. During the semiannual period, the
                          DoD audit agencies issued 73 reports in this area. Most of these reports
                          related to the DoD financial statements for fiscal year 1998.

                          The OIG, DoD, issued a detailed assessment of the Department’s
                          Biennial Financial Management Improvement Plan in April 1999. We
                          support the DoD effort to comply with a variety of statutory reporting
                          requirements with a single document, the Biennial Plan. Annual updates
                          will be needed, and the Department plans to submit an updated version in
                          late 1999. In reviewing the Biennial Plan, we reported that the
                          management oversight mechanisms and reporting concepts developed by
                          DoD for the successful Y2K conversion effort would be easily adaptable
                          for monitoring progress toward compliance with Federal accounting

                                                2
Semiannual Report to the Congress                                                                   Chapter One




                                                                standards by each of the over 200 critical DoD
                                                                financial reporting systems. Most of those
                                                                systems have principal functions, such as
                                                                logistics, acquisition, and personnel or property
                                                                management, and they do not belong to the
                                                                Defense Finance and Accounting Service
                                                                (DFAS). Without centralized monitoring, the
                                                                individual system managers will have differing
                                                                views on what constitutes compliance, will
                                                                have limited realization of how their efforts
                                                                compare to others and will report progress
                                                                differently, if at all. The same problems
                                                                existed, on a wider scale, when the Y2K
   Defense Finance and Accounting Service - Indianapolis Center initiative began. Although the Department
                                                                agreed in May 1999 to apply these lessons in
                                  the financial reporting systems area, there has been little progress to date.
                                  This is disappointing and the OIG, DoD, will continue pressing the
                                                     Department to adopt a more systematic, effective and
“...the OIG, DoD, will continue                      visible management approach. Without it, there is
pressing the Department to adopt considerable risk that compliant systems will continue to
a more systematic, effective and                     be deficient as far into the future as the middle of the next
visible management approach.”                        decade.

                          We also reported during the period that the risk of Antideficiency Act
                          violations and duplicate payments remained unacceptably high because
                          of the continued inability to match disbursements with valid obligations
                          in DoD accounting records. Considerable progress was made in reducing
                                            certain categories of unmatched disbursements
“As of August 1999, the DoD had at          between 1996 and 1998, but some DoD organizations
least $6.3 billion in problem disburse- did not share in that downward trend and overall
ments that were not properly                progress had slackened. As of August 1999, the DoD
recorded.”                                  had at least $6.3 billion in problem disbursements that
                                            were not properly recorded.

                               In addition to improving the efficiency of DoD finance and accounting,
                               the OIG, DoD, is working closely with the Department to combat fraud
                               involving DoD finance activities, especially payments to contractors. As
                               of September 30, 1999, the Defense Criminal Investigative Service
                               (DCIS) had 85 open financial fraud cases. Further details are in Chapter
                               Two.

INFRASTRUCTURE                 Excessive costs in support areas such as supply, maintenance,
                               transportation, facilities, environmental cleanup, property administration,

                                                        3
Chapter One                                                                Semiannual Report to the Congress




                                                          health care and miscellaneous administrative
                                                          activiti es put additional pressure on DoD
                                                          modernization and readiness accounts. The
                                                          Department has put a high priority on reducing
                                                          support costs while attempting not to degrade
                                                          logistics support or the quality of life for military
                                                          and civilian personnel. For example, there are
                                                          about 300 reform initiatives in the logistics area
                                                          alone, an unprecedented level of emphasis on
                                                          management improvement. Many of the reform
                                                          effo rts througho ut th e sup port area ent ail
                                                          adopting commercial practices, most of which
                                                          are based on web-based information technology.

                                                          The DoD audit community issued 82 reports on
                                                          support programs and participated in numerous
                                                          logistics reform task forces during the reporting
                                                          period. This is another area where much more
                                                          needs to be done to develop reliable and useful
       An employee fills a customer order at the DoD      performance reporting. Other significant issues
           distribution depot in San Joaquin, CA
                                                          identified by audit ors included continued
                                  problems in attaining control over equipment and spare parts, so that
                                  shortages in operating units and war reserves are avoided, but excessive
                                  stocks in depots are minimized. Although DoD has cut the “wholesale”
                                  supply inventory nearly in half, saving some warehouse and carrying
                                  costs, the Air Force recently advised Congress that aircraft mission
                                  capable status had declined from 83 percent in 1991 to 73 percent, which
                                  is unacceptably low. Failure to provide spare parts to line units and repair
                                  depots is the principal problem. We believe that poor logistics manage-
                                  ment, cumbersome financial management, inadequate funding and
                                  paying excessive prices for spare parts are all causal factors. Audits also
                                  show poor visibility over material in-transit, failure to transfer usable
                                  items between Services instead of disposing of them and noncompliance
                                  by the Military Departments with DoD attempts to develop reliable depot
                                                              capacity and utilization data. In the disposal
“We believe that poor logistics management, area, the DCIS continued its aggressive
cumbersome financial management,                              efforts to pursue theft and fraud. There were
inadequate funding and paying excessive                       57 open investigations in September 1999
prices for spare parts are all causal factors.” involving DoD property disposal.

                                                       In the health care area, auditors reported
                              numerous ways to save money and improve service. For example, DoD
                              spent about $45 million for in-patient treatment in military medical

                                                      4
Semiannual Report to the Congress                                                        Chapter One




                            facilities for dual-eligible beneficiaries on whose behalf another agency
                            was making per capita payments to health maintenance organizations.
                            Another evaluation showed that the 8.2 million potential beneficiaries of
                            TRICARE, the DoD managed care health program, were not receiving
                            adequate information on the program, a contributing factor to
                            disappointingly high levels of user dissatisfaction with TRICARE. The
                            DoD health care program is also a target for fraud, and the growing
                            investigative caseload is difficult to manage under current resource
                            constraints. In September 1999, the DCIS had 531 open health care fraud
                            cases.

INFORMATION                 Although Information Technology Management is treated as a separate
TECHNOLOGY                  high risk area, the challenges faced by the DoD in managing its
MANAGEMENT                  enormous population of systems and networks directly affected all other
                            support areas, as well as warfighting. The most publicized of these
                            challenges during the past 2 years has been the Y2K conversion task,
                            which is discussed as a focus area below.

“...DoD audit agencies issued 16           During the period, the DoD audit agencies issued 16
reports on information technology          reports on information technology issues other than Y2K.
issues other than Y2K. This clearly        This clearly represents a minimal level of coverage, given
represents a minimal level of              the fact that the Department has over 2,000 mission-
coverage....”                              critical systems, nearly 7,000 other essential systems,
                                           several hundred ongoing development and acquisition
                            projects, a severe information assurance problem and rapidly expanding
                            reliance on electronic commerce. In addition, there are longstanding
                            problems in enforcing configuration management policies, frequency
                            spectrum management, oversight of system acquisitions, interoperability,
                            user acceptance, budget visibility and information technology
                            infrastructure. We believe that the Department’s senior managers and
                            commanders are taking the information assurance threat very seriously,
                            but audits continue to indicate a lack of emphasis at the installation and
                            program office levels, partially because of the distraction created by the
                            Y2K challenge.

                            Similarly, the DoD and Congress are clearly committed to improving
                            management oversight of investment decisions, acquisition project status
                            and the $16 billion annual DoD budget for information technology.
                            Section 8121 of the Defense Appropriations Act for Fiscal Year 2000
                            mandates that no funds may be used for any mission-critical or essential
                            system that is not registered with the DoD Chief Information Officer
                            (CIO). This measure will eliminate the past uncertainty about the content
                            of the DoD information technology portfolio. In addition, the Act

                                                  5
Chapter One                                                    Semiannual Report to the Congress




              requires certification to Congress of compliance with Clinger-Cohen Act
              requirements for major automated systems passing designated
              acquisition milestones. The certifications must include data that previous
              audits have found missing for some new systems, such as funding base-
              lines and an information assurance strategy. These requirements will lend
              impetus to the DoD effort to establish a more effective management
              control process. Past experience with weapon system acquisition over-
              sight and the informal partnership between the DoD internal auditors and
              the CIO on Y2K indicate that audit validation of information reported to
              the CIO and Congress would be highly beneficial. Likewise, to the extent
              that resources permit, the audit community recognizes the need to plan
              much more extensive coverage of information assurance, controls in the
              electronic commerce area and other major information technology issues.
              Similarly, the DoD criminal investigative community is enhancing its
              direct support of DoD computer system intrusion defense.




               A Navy member aboard the U.S.S. Carl Vinson stays in touch
                        with family members through E-mail.




                                        6
Semiannual Report to the Congress                        Special Emphasis Area--Year 2000 Conversion




YEAR 2000 (Y2K) CONVERSION

PREVIOUS                In previous semiannual reports, we described the magnitude of the
ASSESSMENTS             challenge posed to the DoD by the Y2K computer code conversion
                        problem. The Department has an estimated 10,000 vital networks, 1.5
                        million individual computers and tens of millions of embedded
                        microprocessor chips in millions of equipment items. It also has 638
                        major installations, many thousand suppliers and extensive computer
                        interfaces with Federal and state agencies, contractors, host nations, other
                        allies and potential coalition partners. The DoD Y2K effort necessarily
                        exceeded that of any other public or private sector organization in
                        magnitude and complexity. The current estimated cost of the DoD Y2K
                                     conversion effort is $3.6 billion.
“The current estimated cost of
the DoD Y2K conversion effort is
                                     In the previous reports, we also discussed initial DoD
$3.6 billion.”
                                     problems in raising Y2K awareness among commanders and
                                     managers and in coping with the legacy of decades of very
                        decentralized and often lax information technology management.
                        However, in March 1999, testimony to the House Subcommittees on
                        Technology and on Government Management, Information and
                        Technology, as well as in our last semiannual report, we expressed
                        confidence in the eventual success of the DoD effort. Specifically, we
                        stated that, with continued intensive management attention through
                        calendar year 1999, the DoD would not suffer system failures significant
                        enough to impair critical mission performance. We noted, however, that
                        while multi-system testing of unprecedented scope was scheduled, it had
                        not yet taken place. Without the results of the integrated testing, it would
                        have been premature to declare success. Likewise, much work remained
                        to be done to convert several hundred still noncompliant mission-critical
                                                systems, ensure that viable contingency plans
“The very positive responses...from the         were in place, achieve compliance of all critical
Department, OMB, the President’s Special mainframe and mid-tier computers in data
Assistant on Year 2000 Conversion...and processing centers and ascertain the Y2K
Congress indicate...the heavy emphasis          readiness status of suppliers and data exchange
was warranted and useful.”                      partners, especially overseas.

AUDIT VALIDATION            Over 200 DoD audits and inspections have been conducted to monitor,
                            validate and facilitate implementation of the DoD Y2K Management
                            Plan. For the OIG, DoD, auditing Y2K conversion has entailed
                            significant reprioritization of resources and coverage throughout 1998
                            and 1999, with nearly 180 Y2K audits performed. The very positive
                            responses to this body of work from the Department, OMB, the

                                                 7
Special Emphasis Area--Year 2000 Conversion                       Semiannual Report to the Congress




                           President’s Special Assistant on Year 2000 Conversion, industry, the
                           General Accounting Office (GAO) and Congress indicate that the heavy
                           emphasis was warranted and useful. The OIG, DoD, believes that the
                           close cooperation between DoD auditors, inspectors and managers on
                           Y2K constitutes an important precedent for future information
                           technology initiatives and adds considerable credence to the confidence
                           now being expressed by the DoD on Y2K readiness.

TESTING                    As of September 1999, the DoD was in the final phases of its multi-
                           system (“higher level”) testing program. The higher level tests included
                           31 end-to-end tests by function, such as vendor pay or procurement; 35
                           operational evaluations of warfighting systems by the combatant
                           commands; and 56 organizationally unique efforts, such as Navy battle
                           group systems integration tests. Given the number of tests and systems
                           involved, operational considerations ranging from the air war in the
                           Balkans to tensions on the Korean Peninsula, funding considerations and
                           the compressed schedule necessitated by initially slow progress on
                           system remediation, the testing program was reasonably successful.
                           Managers were generally responsive to audit advice on test planning and
                           the overall results were acceptable, although not as good as they could
                           have been if there had been a less compressed schedule. There was
                           inadequate cooperation among some DoD organizations in terms of
                           sharing test results and enabling the Y2K Program Office to maintain an
                           accurate accounting of what systems were tested and where they were
                           tested. Also, the fact that code scanning tools uncovered numerous Y2K
                           problems that were not found during either system level or higher level
                           tests may indicate that more stressful tests would have been possible.
                           Nevertheless, the testing effort provided beneficial Y2K assurance. In
                           addition, some system problems were found that, while not Y2K related,
                           could have had operational consequences.

Y2K READINESS OF           The DoD was unable to comply fully with the timetable established by
SYSTEMS                    OMB for the phases of Y2K conversion—awareness, assessment,
                           remediation, validation and implementation. Large numbers of systems
                           missed the OMB deadlines for all five phases. Although all mission-
                           critical systems were supposed to be converted by December 31, 1998,
                           for example, only 72 percent of the DoD mission-critical systems had
                           met that milestone by February 1999. Although significant progress was
                           made to catch up, as shown in Figure 1, page 9, the Department
                           continued to get poor grades from Congress on Y2K performance
                           through the fall of 1999. We agree that any noncompliant mission-critical
                           system is a potential cause for concern; however, the risk can be miti-
                           gated through sound contingency planning.

                                                8
Semiannual Report to the Congress                          Special Emphasis Area--Year 2000 Conversion




                          Mission-Critical Systems Completed

                2500
                                                                       2051       2087
                                                1789        1929
                2000
                                     1491
                1500
                          810
                1000

                 500

                   0
                        Sep-98       Dec-98    Mar-99      Jun-99     Sep-99     Oct-99

                                2,101 Total Mission-Critical Systems Tracked

                                                Figure 1


Y2K READINESS OF            In addition to converting over 2,000 mission-critical systems and nearly
PROCESSING                  7,000 mission-essential systems, the DoD reacted promptly to audit
PLATFORMS                   advice that its processing center platforms needed special emphasis to
                            ensure they will function properly after Y2K. Because those platforms
                            run thousands of systems segmented into 351 domains, achieving Y2K
                            compliance entailed tremendous cooperation between system managers,
                            design activities and platform administrators. This difficult effort was
                            successfully completed, as shown in Figure 2, page 10.

CONTINGENCY                 Regardless of the amount of effort put into Y2K system conversion and
PLANS                       testing, OMB and GAO have appropriately stressed the need for sound
                            contingency plans at both the individual system and organizational
                            levels. Within the DoD, there was considerable initial difficulty in
                            motivating managers and commanders to devote sufficient resources and
                            time to this task. Through early September 1999, 173 audit and inspec-
                            tion reports indicated contingency plan deficiencies in virtually all DoD
                            components. The frequent findings of missing, incomplete, uncoordi-
                            nated or untested plans were brought to the attention of the Deputy
                            Secretary’s Year 2000 Steering Committee, and considerably more
                            management emphasis was evident as the last calendar year quarter
                            began.

                            In addition to having sound contingency plans in place, managers need to
                            consider measures to minimize risk. Such measures could include

                                                 9
Special Emphasis Area--Year 2000 Conversion                         Semiannual Report to the Congress




                         Processing Center Domains Completed
                  400
                                                                       336        351
                  350
                                                            289
                  300
                                                 242
                  250
                  200
                           132        164
                  150
                  100
                   50
                     0
                          Oct-98    Dec-98     Mar-99      Jun-99    Sep-99      Oct-99
                                              351 Total Domains

                                                Figure 2


                           temporarily discontinuing Internet access or rescheduling activities that
                           depend on automated system support. These decisions are best made by
                           line managers, not information technologists. It is important that DoD
                           line managers use the remaining time in 1999 to fine tune continuity of
                           operations plans and risk mitigation measures.

OUTREACH                   Some of the most difficult Y2K challenges relate to the non-DoD
                           organizations, firms and allies that interface with the Department. The
                           DoD commanders and line managers, the key players in outreach to
                           external organizations, were not fully cognizant of their vital role in Y2K
                           conversion until the Secretary of Defense reemphasized the threat that
                           Y2K disruptions would pose to overall military readiness in August
                           1998. Moreover, as slow as the DoD Y2K progress seemed during 1996
                           through mid-1998, many of the Department’s data exchange partners and
                           suppliers were even further behind, especially overseas.

                           It was early or mid-1999 before credible Y2K readiness information
                           existed for many of the parties involved in supply chain or operational
                           relationships with the DoD. Despite the belated initiation of Y2K
                           dialogue, good progress has been made. This is particularly true
                           regarding U.S. domestic infrastructure and most host nation support
                           issues.




                                                 10
Semiannual Report to the Congress                         Special Emphasis Area--Year 2000 Conversion




                            The DoD supplier outreach effort has been generally successful, although
                            its scope was constrained by various factors, including problems in
                            identifying critical supply items in a consistent, timely and accurate way.
                            The Defense Contract Management Command did an excellent job in
                            determining the readiness of the 100 critical suppliers that it reviewed.

                            There were very few instances of building up inventories of critical parts
                            as a contingency measure, which was somewhat surprising. To a certain
                            extent, this reflects high confidence that supply chains will not be
                            disrupted, although in some cases concerns about funding or holding
                            excess stock appeared to discourage more aggressive action and it is
                            questionable whether all supply item managers took the problem
                            seriously. Nevertheless, DoD confidence in the Y2K readiness of its
                            supply chain is consistent with the assessment of other government
                            agencies and most private sector experts regarding the U.S. business
                            sector.

SUMMARY                     In summary, the DoD has made a tremendous effort to prepare for Y2K.
                            Although it frequently lagged behind OMB timelines for the effort, we
                            believe the Department’s high confidence is justified. Some systems are
                            likely to have problems, hackers may be more active than usual and some
                            suppliers and other governments may have more difficulty than currently
                            anticipated. Nevertheless, the DoD Y2K conversion appears at this point
                            to be a success story, largely because of emphasis applied by the Secre-
                            tary and Deputy Secretary of Defense in late 1998, when progress was
                            deemed unsatisfactory. The DoD audit community will continue its quick
                            reaction reporting on Y2K readiness through the end of 1999. After the
                            millenium date change and until the Y2K transition period ends in March
                            2000, we plan to assist in determining the cause of any significant
                            unforeseen problems that emerge and to help identify the lessons learned
                            from the Y2K experience.




                                                  11
Special Emphasis Area--Year 2000 Conversion                         Semiannual Report to the Congress




                                   This page left blank intentionally




                                                 12
Semiannual Report to the Congress                                 Special Emphasis Area--Contract Management




CONTRACT MANAGEMENT

DEFENSE                         The huge size and complexity of the DoD acquisition program were
PURCHASING                      discussed previously in the summary of high risk areas. After the
                                Department determines its prioritized requirements for purchased
                                materiel and services and obtains funding, it identifies an appropriate
                                purchasing tool for each item, conducts a purchase transaction and takes
                                measures to ensure contractor/vendor performance and to make payment.
                                This focus area discusses purchasing strategies, prices paid and
                                administrative functions related to ensuring that the Government gets
                                what it pays for and complies with applicable laws and regulations.
                                Despite the greatly increased use of credit cards and other transactions
                                instead of traditional contracts, we use the term contract management in
                                this report as a generic term encompassing the administrative aspects of
                                all DoD purchases.

                                        Although the DoD budget declined between fiscal years
“Although the DoD budget declined
                                        1990 and 1998, the number of procurement actions has
between fiscal years 1990 and 1998,
                                        actually risen, as shown in Figure 3, page 14. The dollar
the number of procurement actions
                                        value of procurement actions declined somewhat in real
has actually risen....”
                                        terms, but the overall totals remained fairly constant in
                        then-year dollars, as indicated in Figure 4, page 15. The trend toward
                        increased spending on services and less on equipment is shown in
                        Figure 5, page 16.

                                Regardless of the purchasing vehicles used and the nature of the
                                purchased items, each procurement transaction entails administrative
                                responsibilities for DoD personnel and potential issues. These issues
                                pertain to the efficiency of contract management and how well the
                                Government’s interest is protected.

FRAUD                    Vulnerability to procurement fraud, including product substitution and
                         false billings, has been a concern in military acquisition programs since
                         the Revolutionary War. In our last semiannual report, we discussed
                         bribery, kickbacks and corruption as a focus area. We reported that the
                         DoD procurement arena remains highly vulnerable to corruption because
“...[T]he DoD procurement arena remains of the sheer volume of transactions and dollars
highly vulnerable to corruption...During expended. During this period of acquisition
                                                workforce downsizing, numerous procurement
this period of acquisition workforce
downsizing...it is imperative...[to]            p r o c e ss c h a n g e s , t h e i n t r o d u c t i o n o f n e w
maintain strong controls against fraud.” automated procurement management systems and
                                                transition to electronic business, it is imperative


                                                        13
Special Emphasis Area--Contract Management                                          Semiannual Report to the Congress




                                      Number of Procurement Actions
          16,000,000


          14,000,000


          12,000,000


          10,000,000


           8,000,000


           6,000,000


           4,000,000


           2,000,000


                  0
                       1990    1991     1992      1993        1994       1995       1996    1997    1998
                                                          Fiscal Year

                                         DD 1057 (Procurement Actions less than $25,000)
                                         Credit Card
                                         DD 350 (Procurement Actions more than $25,000)




                                                     Figure 3


                              that the Department maintain strong controls against fraud. We are
                              working closely with the Department to decrease vulnerabilities in such
                              areas as medical service contracts and other vendor pay. We are also
                              making fraud control an important consideration when commenting on
                              proposed acquisition legislation or regulation changes and when auditing
                              contract management issues such as quality assurance and sole-source
                              selections. Recent examples of procurement fraud cases, including
                              product substitution investigations, and related statistics are included in
                              Chapter Two of this report.

PROCUREMENT                   Decisions made on the front end of the acquisition process related to new
STRATEGY                      weapon system performance requirements and quantities, as well as
                              subsequent design decisions, are the primary drivers of life-cycle costs.
                              Once it is decided what to buy, however, considerations such as type of
                              contract, competitive versus sole-source selection, economic order


                                                         14
Semiannual Report to the Congress                                     Special Emphasis Area--Contract Management




                               Dollar Value of Procurement Actions

         $160,000,000


         $140,000,000


         $120,000,000


         $100,000,000


          $80,000,000


          $60,000,000


          $40,000,000


          $20,000,000


                  $0
                        1990     1991    1992           1993       1994       1995          1996   1997   1998
                                                                Fiscal Year

                                          DD 1057 (Procurement Actions less than $25,000)
                                          Credit Card
                                          DD 350 (Procurement Actions more than $25,000)




                                                        Figure 4


                               quantities and contract terms come into play as cost drivers. Many
                               contract management issues relate to how effectively the Department
                               makes those decisions and how well the DoD uses its authorities and
                               resources in the process.

DCAA SUPPORT TO                Contracting officers have various sources of assistance as they perform
CONTRACTING                    market research or other analysis to determine price realism. One of the
OFFICERS                       most essential sources of financial advice is the DCAA.

                               Recent legislation relieved contractors from the requirement to submit
                               certified cost or pricing data for a broad range of procurements and
                               expanded the definition of a commercial item. Consequently, the requests
                               for DCAA audits of price proposals based on certified cost or pricing
                               data have declined. However, there has been a corresponding increase in


                                                           15
Special Emphasis Area--Contract Management                                              Semiannual Report to the Congress




                         Major Contract Values by Selected Categories
        $160,000,000


        $140,000,000


        $120,000,000


        $100,000,000


         $80,000,000


         $60,000,000


         $40,000,000


         $20,000,000


                 $0
                       1990    1991     1992        1993         1994            1995       1996          1997         1998
                                                              Fiscal Year                            Source: DD350 database for
                                               Supply and Equipment                                procurement actions over $25,000

                                               Other Services and Construction
                                               Research and Development




                                                     Figure 5


                              requests for DCAA to provide other financial advisory services related to
                              cost realism, commercial pricing and evaluation of requests for waivers
                              of cost or pricing data.

                              These statutory changes have also presented challenges to DCAA
                              customers at the buying offices. The DCAA is responding to its
                              customers’ needs by establishing Financial Advisory Service Centers at
                              all principal DoD procurement activities.

                              In May 1995, the Secretary of Defense directed that integrated product
                              teams (IPTs) be used throughout the Department. As a result, IPTs are
                              often established at contractor sites to improve the contract price
                              proposal preparation and review process. This initiative has significantly
                              changed the way DCAA performs price proposal audits. When a price
                              proposal IPT is established at a contractor location, the DCAA auditor
                              serves as a member of the team providing real-time feedback on potential
                              problems during the price proposal preparation process. The auditor also

                                                        16
Semiannual Report to the Congress                         Special Emphasis Area--Contract Management




                            begins the review process as parts of the proposal are completed and
                            submitted to the team. An audit report is issued after submission of a
                            completed proposal. Audit issues are identified and resolved in a more
                            timely manner, and the procurement cycle time is reduced significantly.

                            In December 1995, the Single Process Initiative (SPI) was established to
                            help eliminate costly redundant processes within contractor facilities. It
                            established mechanisms for the contractor to reduce the number of
                            processes used and to modify existing contracts on a facility-wide basis,
                            rather than on a contract-by-contract basis. The auditor’s principal role in
                            SPI has been to evaluate the contractor’s cost-benefit analysis to
                            determine whether the monetary benefits of proposed changes exceed the
                            implementation costs. The DCAA is also an active participant on
                            management councils that evaluate contractor process improvement
                            proposals. The participation by DCAA indicates the good working
                            relationship with most contractors that has been forged over the past
                            several years.

                            Like the OIG, DoD, the DCAA participates in numerous acquisition
                            reform task forces and has revamped many of its own practices to
                            streamline contract management. For example, the agency has improved
                            its risk assessment procedures and sampling methodology for low dollar
                            value incurred cost proposals. It also has helped implement a contractor
                            direct billing initiative, conducted concurrent, instead of sequential,
                            incurred cost audit segments to reduce cycle time and streamlined
                            contract closeout audits. It is noteworthy that a customer satisfaction
                            survey conducted as part of the 1997 Biennial Review of Defense
                            Agencies and DoD Field Activities gave DCAA an overall DoD
                            customer satisfaction rating of 97 percent. The report concluded that
                            there is a very strong need for the services DCAA provides.

                            The DCAA and OIG, DoD, support the general acquisition reform goal
                            of adopting proven commercial acquisition approaches when there is a
                            healthy, competitive marketplace. The DCAA encourages its auditors to
                            be proactive and advise the contracting officers to make optimum use of
                            the latitude provided by acquisition reform legislation and updated
                            regulations. However, the DoD buys many unique military systems that
                            clearly are not subject to marketplace pricing. When this is the case, the
                            DCAA and the OIG, DoD, believe the procurement should be based on
                            the cost or pricing data requirement and subject to a DCAA audit. The
                            cost or pricing data requirement ensures that DoD gets a reasonable price
                            when there are no competitive market forces. A recent DCAA analysis
                            shows that the benefits of the cost or pricing data requirement continue to

                                                  17
Special Emphasis Area--Contract Management                                  Semiannual Report to the Congress




                               far outweigh the costs. In fiscal year 1997, audits of cost or pricing data
                               generated nearly $1.4 billion of net savings to the Government.

                               Unfortunately, the DCAA has been under severe downsizing pressure
                               throughout the 1990’s. We urge the Department and Congress to
                               consider the vital role of DCAA and its excellent record of return on
                               investment when considering future budgets.

ENCOURAGING              Making effective use of tools like the Truth in Negotiations Act and
COMPETITION              contract audits will help ensure fair and reasonable prices in sole-source
                         situations. The best way to reduce prices, however, is through
                         competition. Measures to reduce the use of overly restrictive military
                         specifications and standards and to oppose anticompetitive mergers or
                         exclusive teaming arrangements are prudent and should be continued.
                                              A s s h o w n i n r e c e nt s p a r e p a r t s a ud i t s , t h e
“Making effective use of tools like the Department also needs to overcome longstanding
Truth in Negotiations Act and contract tendencies to miss opportunities for component
audits will help ensure fair and              breakout for competition and not to acquire technical
reasonable prices in sole-source              data to facilitate future source reconsideration. The
situations.”                                  gr owth in pr ocur ement of services makes i t
                                              particularly important to take aggressive measures to
                         maximize competition in this area, which is just beginning to receive as
                         much acquisition reform attention as procurement of supplies and
                         equipment. The increased use of performance-based contracting
                         requirements should enhance competition and help introduce leading-
                         edge commercial technology.

OTHER ISSUES                   Although recent coverage has been limited, DoD and GAO auditors have
                               raised questions concerning numerous contract management practices.
                               These include the consistency and reasonableness of definitions of what
                               is a commercial item; the ability of the DoD work force to cope with so
                               many policy changes at one time; the adequacy of Government review of
                               the disposition of its share of pension assets related to DoD contracts
                               after contract mergers; contract term deviations and waivers;
                               underutilization of uncertified cost data in situations where certified data
                               are not obtainable; management of Government-furnished property in
                               contractor plants; user acceptance of the new Standard Procurement
                               System; and compliance with the Buy American Act and Berry
                               Amendment. Currently, the OIG, DoD, is reviewing the impact of the
                               46 percent reduction in the DoD acquisition work force during the 1990’s
                               and will provide a report to the Department and Congress in early 2000.




                                                       18
Semiannual Report to the Congress                       Special Emphasis Area--Contract Management




SUMMARY                     The GAO has appropriately termed Defense acquisition a high risk area,
                            and contract management remains one of the most controversial aspects
                            of DoD operations. The DoD audit and investigative communities apply
                            more resources to this area than any other, which is indicative of its
                            inherent challenges.




                                                19
Special Emphasis Area--Contract Management                         Semiannual Report to the Congress




                                  This page left blank intentionally




                                                20
Semiannual Report to the Congress                                                             Chapter Two




CHAPTER TWO - SIGNIFICANT ACTIVITIES

INTRODUCTION                    This chapter summarizes the significant activities of the OIG, DoD,
                                components and their work with other members of the DoD oversight
                                community.

CRIMINAL                        The four Defense Criminal Investigative Organizations (DCIOs)
INVESTIGATIONS                  continue to combat crime affect ing the DoD and the Milit ary
                                Departments. The DCIS, the criminal investigative arm of the OIG, DoD,
                                focuses the bulk of its 335 civilian criminal investigators on the
                                investigation of procurement fraud by Defense contractors and health
                                care fraud by health care providers. The three Military Department
                                criminal investigative organizations, the Army Criminal Investigation
                                Command (CIDC), the Naval Criminal Investigative Service (NCIS) and
                                the Air Force Office of Special Investigations (AFOSI), also investigate
                                procurement fraud, but focus the majority of their resources on other
                                crimes against persons and property affecting their respective Military
                                Departments. The AFOSI and NCIS also conduct counterintelligence
                                investigations and operations. This section focuses on the procurement,
                                health care and other major fraud investigations accomplished by the
                                DCIOs.

                                Figure 6 (page 22) displays the investigative results achieved by the four
                                organizations during this period. As in previous reports, the statistics
                                shown in the table do not include general crime investigations (other than
                                large-scale thefts) or counterintelligence activities.

 Examples of Major              The following are examples of some of the more significant fraud cases
 Procurement Fraud              investigated by the DCIOs during this semiannual period. It should be
                                noted that in virtually all instances, the DCAA played a critical role in
                                                 supplying needed audit support.

                                                      •   David M. Mitchell, co-owner and president of
                                                          Campbell M. Industries, Incorporated (CMI),
                                                          Stockton, California, was sentenced to 42
                                                          months confinement, followed by 36 months
                                                          probation, and ordered to pay $276,969 in
                                                          restitution to the DoD and a $4,100 special
                                                          assessment . An i nvest igati on di sclosed
                                                          Mitchell fraudulently provided surplus aircraft
                                                          parts on 21 DoD small purchase contracts and
                 C5A Aircraft                             portrayed the surplus parts as new. Mitchell

                                                     21
Chapter Two                                                                    Semiannual Report to the Congress

                     DEFENSE CRIMINAL INVESTIGATIVE ORGANIZATIONS CASE RESULTS
                                                       Procurement Fraud
                                                      and Major Health Care    Other Criminal
                                                       Fraud Investigative      Investigative
                                                          Case Results             Results             Total
LITIGATION RESULTS
        Indictments - DoJ                                               93               172               265
        Convictions - DoJ                                               81               153               234
        Indictments - State/Local/Foreign                                --               40                   40
        Convictions - State/Local/Foreign                                --               40                   40


MONETARY OUTCOMES
        DoJ Only                                             $171,625,529         $78,521,580      $250,147,109
        DoD Administrative Recoveries                            12,455,387        15,336,681        27,792,068
        Investigative Recoveries                                  3,964,975                --         3,964,965
        State/Local/Foreign                                              --           917,950          917,950
        Total Monetary Outcomes                              $188,045,881         $94,776,211      $282,822,092


SUSPENSIONS AND DEBARMENTS RESULTING FROM INVESTIGATIONS
Suspensions
        Individual                                                      57
        Companies                                                       30
Debarments
        Individual                                                      39
        Companies                                                        6
                                                         Figure 6


                                                received the contract awards based on his electronically
                                                submitted bids and false certifications that he provided factory-
                                                new, non-surplus parts. Mitchell's scheme included directing
                                                his employees to fill the purchase orders with surplus parts
                                                available on the Inventory Locator Service, having the parts
                                                repackaged, falsifying documentation about the origin of the
                                                parts and then shipping the parts via United Parcel Service to
                                                the required DoD delivery point.

                                            •   RGA Labs, Incorporated (RGA), Torrance, California, was
                                                sentenced to pay a criminal fine of $500,000, criminal
                                                restitution of $1.2 million, a $300 special assessment and was
                                                put on probation for a period of 5 years for allegedly making
                                                false claims to the DoD and to the National Aeronautics and
                                                Space Administration (NASA). RGA specializes in testing
                                                electronic components, to include semiconductors and
                                                integrated circuits used in high reliability applications, such as

                                                            22
Semiannual Report to the Congress                                                             Chapter Two




                                          military weapon and space systems. An investigation disclosed
                                          RGA falsely certified required performance testing when, in
                                          fact, testing was performed improperly or not at all. In many
                                          instances, RGA’s test equipment was broken or the equipment
                                          did not exist to perform the testing. In addition, RGA certified
                                          parts that had failed previous testing.

                                     •    Fadi Boutros of LaMesa, California, was sentenced to
                                          37 months incarceration and fined $6,000 and an assessment for
                                          violation of the Arms Export Control Act and the International
                                          Emergency Powers Act. Boutros, an Iraqi national, arranged for
                                          the purchase and export of five pairs of Generation II night
                                          vision goggles used by helicopter pilots to the country of
                                          Jordan. During the investigation, it was learned that the final
                                          destination for the goggles was Iraq. Boutros arranged for a
    Night Vision Goggles                  future purchase of 20 additional Generation III night vision
                                          goggles, also destined for Iraq. The Generation II and III
                                          goggles are state-of-the-art technology, a restricted commodity
                                          that requires licensing before export and are embargoed from
                                          export to Jordan and Iraq.

                                     •    Harsco Corporation, York, Pennsylvania, agreed to pay the
                                          Government $11 million to settle a civil action under the False
                                          Claims Act concerning its former BMY Division. In 1992, the
                                          Government entered into civil litigation regarding an Army
                                          contract with BMY to manufacture 305 M109-A2 self-
                                          propelled howitzers. The investigation disclosed BMY did not
                                                                      live up to the contractual
                                                                      requirements by failing to conduct
                                                                      the proper amount and frequency
                                                                      of testing to detect any structural
                                                                      flaws in its product. The BMY
                                                                      failure to properly test the
                                                                      howitzers caused the Army to
                                                                      conduct a recall to ensure the
                                                                      structural integrity of the
                                                                      howitzers. The resulting damages
                                                                      to the Army exceeded $5 million.

                                                                   •   A $331,411 civil settlement was
                                                                       reached between the Government
                       M109-A2 Howitzer                                and Domes tic Industrie s of
                                                                       Virginia, Incorporated, and its
                                                      23
Chapter Two                                                                     Semiannual Report to the Congress




                                                                    president, John C. Santoro, Jr., for
                                                                    allegedly submitting false claims in
                                                                    conjuncti on wi th supplying No . 5
                                                                    bur ner o il to the Nava l Weapons
                                                                    St at io n, Yo rk to wn, Virgi n ia. Th e
                                                                    investigation revealed that the defen-
                                                                    d a n t s su bm i t t ed f a l s e cl ai m s f o r
                                                                    products that failed to meet required
                                                                    specifications of the Defense Fuel
                                                                    Supply Center contracts. The
                                                                    defendants allegedly substituted used
                                                                    and waste oil obtained at a much lower
     The Defense Fuel Supply Center purchases over 120              price for the burner oil required by the
           million barrels of petroleum products.                   c on t r a c t . T he i n v es t i g a t i o n al s o
                                                                    disclosed that the defendants violated
                                              Environmental Protection Agency regulations by operating a
                                              storage tank as a hazardous waste storage facility without a
                                              permit.

                                       •   A $3 million civil settlement was reached between the
                                           Government and Baker & Taylor, Incorporated (B&T),
                                           Charlotte, North Carolina. B&T, a nationwide book wholesaler
                                           and distributor, allegedly devised a scheme to defraud its
                                           customers by deliberately overcharging for "trade books" and
                                           by manipulating discount levels in ways inconsistent with its
                                           contractual obligations. B&T negotiated master pricing
                                           contracts in which it agreed to sell certain categories of books at
                                           specified discounts from the publisher's suggested retail price.
                                           B&T knew at the time it entered into the contracts with the
                                           Government, State schools and public libraries that the
                                           representations and promises made about the level of discount
                                           the customers would receive were false. The scheme was
                                           carried out by systematically miscategorizing certain trade
                                           books as non-trade books, subject only to "short or net
                                                    discounts."
“As a result of a guilty plea,
Litton agreed to pay the                         •  Litton Applied Technology Division and Litton
Government $18.5 million in                         Systems Canada, Limited, pled guilty to conspiracy to
fines....”                                          defraud the Government, false statements and mail
                                                    fraud. Litton allegedly failed to disclose the use of
                                                    foreign sales representatives who received prohibited
                                           commissions on the sale of Litton Defense articles. The
                                           prohibited commissions were later charged to Litton's Foreign

                                                          24
 Semiannual Report to the Congress                                                                Chapter Two




                                            Military Sales and Foreign Military Financing contracts. As a
                                            result of a guilty plea, Litton agreed to pay the Government
                                            $18.5 million in fines.

 Examples of Health                    •    Genentech, Incorporated, of San Francisco, California, was
 Care Fraud                                 sentenced to pay the Government a total of $50 million to
                                            resolve issues relating to the introduction of misbranded drugs
                                                               in interstate commerce. Genentech admitted
                                                               that between 1985 and 1994, it aggressively
                                                               marketed the synthetic hormone Protropin,
                                                               one of its most lucrative prescription drugs,
                                                               for various medical conditions for which the
                                                               drug had not r eceived F ood and Dr ug
                                                               Administration (FDA) approval. During this
                                                               time period, the FDA had approved the drug
                                                               only for use against a rare growth disorder
                                                               found in a small percentage of children.
           Protropin under a microscope.
     (Courtesy of National High Magnetic Field
                                                          •   As a result of an investigation in connection
        Laboratory, Florida State University)                 with a Qui Tam suit, a $7,742,564 settlement
                                                              was reached between the Government and the
                                            Chapter 11 trustee for the National Recovery Institute Group
                                            (NRIG). The suit alleged that NRIG, a drug and alcohol abuse
                                            clinic, billed TRICARE, Medicare and Medicaid for services
                                            not rendered in accordance with program requirements and for
                                            services that were not medically necessary.

                                       •    A $1.2 million civil settlement was reached between the
                                            Government and VNA Plus, a durable medical equipment
                                            provider, to resolve allegations that included double billing,
                                            billing for services not rendered and altered billings.

                                       •    Investigation of a Qui Tam complaint resulted in a $51 million
“Investigation...resulted in a              civil settlement by Kimberly Home Healthcare, Incorporated, of
$51 million civil settlement by             Miami, Florida (Kimberly), a subsidiary of Olsten Health
Kimberly Home Healthcare,                   Management Corporation. Kimberly pled guilty in U.S. District
Incorporated....”                           Courts in Atlanta, Miami and Tampa to one count informations
                                            charging Kimberly with mail fraud, conspiracy and receiving
                                            kickbacks. The information charged that Kimberly knowingly
                                            assi sted the Columbia Healthcare Corpo rati on in the
                                            preparation and filing of false cost reports with the Government
                                            with respect to home health care. In addition to the civil



                                                          25
Chapter Two                                                     Semiannual Report to the Congress




                                 settlement, the corporation was sentenced to pay fines totaling
                                 $10,080,000.

                             •   As a result of an investigation in connection with a Qui Tam
                                 suit, an $863,711 civil settlement was reached between the
                                 Government and Sharp Memorial Hospital (Sharp). The suit
                                 alleged that Sharp knowingly violated the False Claims Act by
                                 using the wrong diagnostic codes and the wrong diagnosis
                                 related groups to receive higher reimbursement for tests
                                 performed to identify pneumonia causing bacteria.

                             •   A $4,149,555 settlement agreement was reached between the
                                 Government and Nova Southeastern University, Incorporated
                                 (Nova), Fort Lauderdale, Florida. The settlement was a result of
                                 an investigation into allegations that Nova billed TRICARE,
                                 Medicare and Medicaid for psychological services purportedly
                                 provided by licensed therapists or physicians when, in fact, the
                                 services at issue were provided by unlicensed student interns.
“...[A]n orthopedic surgeon...was
                                                  •   Dr. Mark Hoffman, an orthopedic surgeon
sentenced to 24 months incarceration,
24 months supervised probation and                    from Conyers, Georgia, was sentenced to
ordered to pay $739,694 in restitution...             24 months in carcer ation, 24 months
                                                      supervised probation, and ordered to pay
for submitting false statements to
TRICARE.”                                             $739,694 in restitution and a $150,000 fine
                                                      for submitting false statements to the
                                                      TRICARE and other insurance programs.
                                 His spouse, Jayne Hoffman, a nurse and the office manager,
                                 was sentenced to 6 months home confinement, 24 months
                                 supervised probation, ordered to pay a $100,000 fine and serve
                                 500 hours of community service. The Hoffmans operated the
                                 Rockdale Orthopedic Center from 1990 to 1998, and during that
                                 time they submitted claims that included double billing, billing
                                 for services not rendered and upcoded procedures.

                             •   Dr. Samuel M. Green, owner of Green Medical Center (GMC),
                                 Vienna, Virginia, was sentenced to 27 months incarceration,
                                 36 months supervised probation and ordered to pay $1,423,944
                                 in restitution. Dr. Green’s clinic specialized in preventive
                                 medicine, specifically weight loss treatment, a treatment that is
                                 not covered by the insurance plans. Dr. Green submitted claims
                                 to insurance companies, including TRICARE, concealing the
                                 nature of his practice. During the investigation, it was also
                                 determined GMC billed for procedures or tests that were not

                                             26
 Semiannual Report to the Congress                                                           Chapter Two




                                     performed, or were performed less expensively than those
                                     charged, and billed for psychotherapy sessions performed by
                                     unlicensed members of the GMC staff.

                              •      Aberdeen Ambulance Service, Incorporated, Aberdeen, South
                                     Dakota, and Carter B. Hall, its owner and president, were
                                     sentenced as follows: Hall, who previously pled guilty to four
                                     counts of engaging in money transactions in property derived
                                     from specified unlawful activity, was sentenced to 30 months
                                     confinement, 36 months of supervised release on each count,
                                     and ordered to pay $20,000 in fines and assessment. Hall and
                                     Aberdeen Ambulance, which had previously pled guilty to one
                                     count of wire fraud, were ordered to pay $702,500 in restitution.
                                     In addition, Hall agreed to a lifetime debarment from
                                     Government contracting. The investigation determined Hall
                                     submitted false and inflated billings for reimbursement of
                                     ambulance services to Medicare, TRICARE and the State of
                                     South Dakota Medicaid Program.

                              •      Albert L. Asrouch, Jr., of Minneapolis, Minnesota, a former
                                     U.S. Air Fo rce Reservi st, was sen tenced to 6 mon ths
                                     confinement, 5 years probation and ordered to pay $59,816 in
                                     restitution for submitting false statements to obtain Federal
                                     employee compensation benefits as a result of reported back
                                     injuries. An investigation disclosed that for the period
                                     September 1993 through April 1997, Asrouch certified that he
                                     was not involved in any business enterprise when, in fact, he
                                     was actively involved in a family-owned snowplowing
                                     business.

Other Criminal           In addition to the matters listed above, the DCIOs conducted various
Investigative            other significant investigations involving large-scale thefts and non-
Results                  procurement related fraud.

Examples of Other
Criminal
Investigations

 Environment                  •      James M. Hong, a former president and owner of the Avion
                                     Environmental Group, Incorporated, Richmond, Virginia, was
                                     sentenced to 3 years imprisonment, 1 year supervised release
                                     and ordered to pay a $1.3 million fine and assessment for
                                     violation of the Federal Clean Water Act. The investigation

                                                     27
Chapter Two                                                                   Semiannual Report to the Congress




                                                                 disclosed that Hong, a DoD contractor,
                                                                 n eg l i ge nt l y ca u s ed t h e d i s c h arg e of
                                                                 untreated wastewater from Avion's facility
                                                                 into the Richmond wastewater treatment
                                                                 system, failed to provide adequate funding
                                                                 for Avion's filtration and treatment system
                                                                 and pressured his employees to process
                                                                 more wastewater with a nonfunctioning
                                                                 filtration system.
         Example of an environmental spill.

  Kickbacks                            •      Carl William Kruse, Jr., a general partner in Eastern Electric
                                              Company (Eastern), Hampton, Virginia, was sentenced to 24
                                              months incarceration, followed by 3 years supervised
                                              probation; ordered to pay $544,560 in restitution and a $25,000
                                              fine and assessment for providing kickbacks and gratuities. An
                                              investigation disclosed that between 1992 and 1997, Kruse
                                              made monetary payments and non-interest bearing loans to an
                                              officer of Systems Engineering and Energy Management
                                              Associates, Incorporated (SEEMA), Hampton, Virginia, in
                                              return for favorable treatment in connection with subcontracts
                                              for Eastern. While acting as the project manager for SEEMA on
                                              the Simplified Acquisition of Base Engineering Requirements
                                              (SABER) contract at Langley Air Force Base, Kruse awarded
                                              all electrical subcontract work to Eastern, a company in which
                                              he was a part ner. Kruse also provided gratuit ies t o a
                                              Government official in charge of the SABER contracts. Larry
                                              Dennis, former president of SEEMA, was sentenced to 24
                                              months incarceration, followed by 3 years supervised
                                              probation, ordered to pay a $10,000 fine and was debarred from
                                              Government contracting for a period of 3 years.

                                       •      Gino Garilli, a purchasing agent for Kaman Aerospace
                                              Corporation, Bloomfield, Connecticut, was sentenced to 3 years
                                              probation, ordered to pay a $15,000 fine and assessment for
                                              receiving kickbacks and income tax evasion. An investigation
                                              disclosed that Garilli illegally received kickbacks from Royce
                                              Aerospace Material Corporation (Royce), a former DoD
                                              subcontractor and supplier of raw materials, such as aluminum
                                              and titanium. In return, Garilli provided Royce with bidding
                                              information. Garilli failed to report the additional income on his
                                              tax returns. The former president of Royce previously pled
                                              guilty and was sentenced to serve 38 months in prison.


                                                          28
Semiannual Report to the Congress                                                           Chapter Two




  Gratuity                          •   Gilbert P. Wilson, a former Government sales representative for
                                        Canon USA, Incorporated, was sentenced to pay a $1,000 fine
                                        and assessment for offering a gratuity to a public official.
                                        Wilson allegedly offered money to a DoD contracting specialist
                                        to influence the award of a DoD contract worth an estimated
                                        $800,000. The contract was to be awarded under a project to
                                        electronically scan paper documents accumulated by the
                                        Defense Electronics Supply Center, Dayton, Ohio, into an
                                        electronic storage media. The contracting specialist reported the
                                        bribe attempt to authorities, and the payment was never made.

  Theft                             •   Jet Reclamation, Incorporated (Jet), John William Riddle,
                                        president of Jet, and Farrell Herbert Sutton, chief financial
                                        officer for Jet, were sentenced for conspiring to knowingly
                                        receive stolen Government property. Jet was sentenced to a
                                        $52,000 fine and assessment. Riddle and Sutton were each
                                        sentenced to 24 months incarceration (followed by 1 year of
                                        supervised probation) and ordered to pay $113,225 restitution
                                        to the Government. Between 1995 and 1998, Riddle and Sutton
                                        engaged in a scheme to steal aircraft parts from the Defense
                                        Reutilization and Marketing Office and the Defense Logistics
                                        Agency facilities located at Kelly Air Force Base, San Antonio,
                                        Texas. The aircraft parts most sought by Riddle and Sutton




                                            C-130 military aircraft



                                                      29
Chapter Two                                                     Semiannual Report to the Congress




                                were T-56 engine parts, which are used on the C-130 military
                                aircraft.

  Bribery                   •   Six individuals were convicted in connection with an
                                investigation into allegations of bribery at the McGuire Air
                                Force Base Commissary. The investigation disclosed that the
                                meat vendors bribed the managers at the meat department in
                                exchange for favorable treatment while competing for
                                commissary business. Two additional individuals are awaiting
                                sentencing.

HOTLINE                                                                                         H
                                                                                                O
                                                                                                T
                                                                                                L
                                                                                                I
                                                                                                N
                                                                                                E

                                                                                                H
                                                                                                O
                                                                                                T
                                                                                                L
                                                                                                I
                                                                                                N
                                                                                                E

                       During this reporting period, the Hotline received 7,099 telephone calls
                       and letters resulting in the initiation of 936 cases. During the same
                       period, the Hotline closed 1,130 cases. The Hotline distributed 9,927
                       Hotline posters and other Hotline informational materials to various DoD
                       activities and DoD contractors in its continuing effort to promote use of
                       the DoD Hotline. Since 1982, over $418 million have been recovered as a
                       direct result of inquiries initiated in response to information provided to
                       the Hotline.

 Significant Hotline        •   Based on an anonymous complaint, a joint investigation was
 Complaints                     conducted by the FBI and DCIS, with audit assistance provided
                                by the Office of the Assistant Inspector General for Auditing,
                                OIG, DoD, into allegations of accounting abuses by a Defense
                                contractor. The investigation identified altered labor reports to
                                deliberately increase costs to the Government on follow-on
                                contracts; double-billing the Government for engineering work;

                                             30
Semiannual Report to the Congress                                                             Chapter Two




                                        charging improper labor rates and improper billing of commis-
                                        sions. As a result of settlement, the company controller pleaded
                                        guilty to submitting false claims and false statements to the
                                        Government, was fined a total of $40,000 and debarred from
                                        Government contracting for a period of 3 years. The contractor
                                        agreed to pay the Government $2.3 million.

                                    •   Based on a Hotline complaint, the NCIS substantiated
                                        allegations of faulty aerial refueling stores (wing fuel tanks)
                                        manufactured and sold to the Navy. The manufacturing
                                        contractor failed to advise the Government of test failures
                                        involving valves and cracks in the fuel/air fitting interface weld.
                                        Under the terms of the settlement, the company agreed to a
                                        contract modification to decrease the price of another Navy
                                        contract in the amount of $786,000 by offset.

ADMINISTRATIVE              The OIG, DoD, Departmental Inquiries Office conducts investigations
INVESTIGATIONS              and also performs oversight of investigations conducted by the Military
                            Departments. These investigations pertain to:

                                    •   Allegations of whistleblower reprisal against military members,
                                        Defense contractor employees and nonappropriated fund
                                        employees.

                                    •   Allegations that military members were referred for mental
                                        health evaluations without being afforded the rights prescribed
                                        in the DoD Directive and Instruction pertaining to mental health
                                        evaluations of members of the Armed Forces.

                                    •   Noncriminal allegations against senior military and civilian
                                        officials within the DoD.

 Whistleblower              During the reporting period, the Special Inquiries Directorate and the
 Reprisal Activity          Military Department Inspectors General received 200 complaints of
                            whistleblower reprisal. We closed 214 cases. Of the 214 cases closed,
                            136 were closed after preliminary analysis determined further
                            investigation was not warranted; and 78 were closed after full investiga-
                            tion. Of the 78 cases closed after full investigation, 18 (or 23 percent)
                            contained one or more substantiated allegations of whistleblower
                            reprisal.

 Referrals for Mental       Nineteen cases closed during the reporting period contained allegations
 Health Evaluations         of improper referrals for mental health evaluation. We substantiated

                                                    31
Chapter Two                                                Semiannual Report to the Congress




                    violations of DoD Directive 6490.1, “Mental Health Evaluations of
                    Members of the Armed Forces,” in 6 of these cases.

                    Fi gures 7 and 8 (page 3 3) sho w th e ty pes and dist ribu tion of
                    whistleblower reprisal cases as of September 30, 1999.

 Implementing the   We previously reported our initial efforts to implement modifications to
 Modifications to   10 U.S.C. 1034, enacted in the National Defense Authorization Act for
 Title 10, United   Fiscal Year 1999. The modifications expanded the responsibilities of the
 States Code,       IGs within the Military Departments for receiving, investigating and
 Section 1034       reporting allegations of military whistleblower reprisal. During this
                    reporting period, we monitored the effectiveness of the interim
                    procedural guidance we issued to the Military Department Inspectors
                    General in February 1999.

                    Special Inquiries staff and the Military Department Inspectors General
                    continue to work together to provide training, streamline processes and
                    ensure the provisions of 10 U.S.C. 1034 are met. We are continuing our
                    emphasis on conducting thorough preliminary analyses to determine
                    whether a full investigation is warranted. As a result, we are resolving
                    many allegations in a more timely manner.

 Examples of             •   An Air Force airman first class received three letters of
 Substantiated               reprimand and three letters of counseling in reprisal for
 Military                    reporting sexual harassment and racial discrimination to a
 Whistleblower               Social Actions Office.
 Reprisal Cases
                         •   An Army National Guard staff sergeant received a lowered
                             Noncommissioned Officer Evaluation Report in reprisal for
                             reporting problems within the recruiting office to the Inspector
                             General. Further, the responsible officials subjected the
                             sergeant to a hostile work environment by issuing repeated
                             verbal counselings, threats of Uniform Code of Military Justice
                             action and threats to report the member as absent without leave.

                         •   A Navy petty officer received an adverse performance
                             evaluation, an adverse recommendation for instructor duty and
                             an unfavorable duty assignment in reprisal for his support of a
                             fellow military whistleblower.

                         •   A technical sergeant was recommended for discharge from the
                             Air National Guard for complaining to his chain of command,
                             an Inspector General and the Social Actions Office.

                                         32
Semiannual Report to the Congress                                                                                           Chapter Two




                         Whistleblower Reprisal Inquiries/Investigations
                                   By Category of Employee*
                                              Open As Of September 30, 1999

                     200                  179
                     180
                     160
                     140
                     120
                     100
                      80
                      60
                      40                                                   10                             7
                      20
                       0
                                   Military                          NAF                    DoD Contractor

                 *This graph provides a breakdown of reprisal cases according to the category of employee who filed the
                 complaint (Military Member, non-appropriated fund (NAF) employee or employee of a Defense contractor).



                                                                     Figure 7


                                    Military Whistleblower Reprisal Inquiries
                                         By Office Conducting Inquiry*
                                                  Open As of September 30, 1999

                                                                                                Army
                                IG, DoD                                                       51 (28%)
                                57 (32% )




                                                                                                 Navy
                                    USMC                                                        10 (6%)
                                    4 (2%)


                                                                 USAF
                                                                57 (32%)
                        *This graph provides a breakdown of military whistleblower reprisal inquiries according to the
                        organization conducting the inquiry. Military whistleblower inquiries completed by the Military
                        Departments are submitted to the IG, DoD, Special Inquiries Directorate for review and approval .


                                                                      Figure 8

                                                                      33
Chapter Two                                                  Semiannual Report to the Congress




                           •   An Army major was reassigned and received a negative Officer
                               Evaluation Report in reprisal for his participation in an IG
                               investigation concerning his superior officer.

 Example of                •   A Defense contractor employee was discharged from his
 Substantiated                 position as a quality control manager because he reported
 Defense Contractor            contract improprieties to Government contracting officials in
 Employee                      Korea.
 Whistleblower
 Reprisal Cases

 Example of                •   A nonappropriated fund employee’s work hours were reduced
 Substantiated                 and he was removed from the work schedule in reprisal for
 Nonappropriated               appealing to the commanding officer of the Naval installation to
 Fund Employee                 overturn his proposed separation. We recommended the
 Whistleblowser                employee receive back pay for the period in question and that
 Reprisal Cases                he be returned to the work schedule.

 Senior Official      Figures 9 and 10 (page 35) show results of activity on senior official
 Inquiries            cases during the period. On September 30, 1999, there were 229 ongoing
                      investigations into senior official misconduct throughout the Department,
                      down slightly since April 1, 1999 when we reported 250 open
                      investigations. Over the past 6 months, we closed 198 senior official
                      cases, of which 41 (21 percent) contained substantiated allegations.

 Examples of Cases         •   As directed by Section 1066 of the Strom Thurmond National
 Involving Senior              Defense Authorization Act for Fiscal Year 1999, we conducted
 Officials                     a new investigation into matters concerning the 174th Fighter
                               Wing (FW) of the New York Air National Guard. The law
                               required that we examine circumstances that led to the
                               December 1, 1995, grounding of the 174th FW and that we
                               evaluate the administrative and disciplinary actions taken
                               against members of that wing to determine whether those
                               actions were appropriate.

                               As part of our work, we obtained sworn, taped testimony from
                               over 50 witnesses, consulted with aviation safety experts and
                               reviewed extensive documentation that was compiled during
                               prior investigations. We found that the commander of the
                               174th FW grounded the unit in December 1995 as the ultimate
                               step in dealing with perceived pilot attitude, morale and
                               disciplinary problems that potentially compromised operational


                                           34
Semiannual Report to the Congress                                                                                        Chapter Two




                                   Program Integrity
               Nature of Substantiated Allegations Against Senior Officials
                                 During 2nd Half FY99

                                                        Se xual
                                                      Haras sme nt/           Abus e of
                                                       Imprope r          Authority/M is us e
                                                      Re lations hip         of Pos ition
                        Othe r M is conduct                5%                   12%
                               23%




                                                                                                     M isus e of Gov't
                                                                                                        Prope rty/
                                 Imprope r
                                                                                                        Re source s
                            Pe rs onne l Action
                                                                                                           38%
                                   22%



                             Total Cases: 198                          Substantiated: 41


                                                             Figure 9




                                                    Program Integrity
                                                  Senior Official Inquiries
                                              Open As of September 30, 1999

                160
                140       130
                120
                100
                 80
                 60
                                                                                                40               30
                 40
                                              20             6                3
                 20
                  0
                         Army             Navy           USAF                USMC          Defense            OIG
                                                                                           Agencies         Program
                                                                                                            Integrity
            This graph provides a breakdown of senior official
            cases according to the organization which is
            conducting the inquiry. Inquiries completed by                   Total Open Cases: 229
            other organizations are submitted to the Program
            Integrity Directorate, OIG, DoD, for review.


                                                         Figure 10


                                                                        35
Chapter Two                                             Semiannual Report to the Congress




                         safety. We concluded that the grounding was justified for safety
                         reasons and that its duration of 33 days was not unreasonable.

                         With the exception of nonjudicial punishment that was awarded
                         to two of the 174th F W pi lots, we concl uded that th e
                         administrative and disciplinary actions taken against members
                         of the wing were appropriate. We provided the report of our
                         investigation to the Congress on September 1, 1999.

                     •   In another investigation, we substantiated allegations that a
                         director of a DoD agency violated Government ethics
                         regulations pertaining to conflict of interest by engaging in
                         official matters affecting a contractor with whom he was
                         seeking employment. However, we concluded that the matter
                         did not involve a violation of criminal statute because the
                         individual's employment search had not progressed to the point
                         of negotiating for a position.

CRIMINAL        The Office of Criminal Investigative Policy and Oversight (CIPO)
INVESTIGATIVE   published the following significant reports during the reporting period.
POLICY AND
OVERSIGHT            •   The Evaluation of the Defense Protective Service (DPS)
                         provided an in-depth assessment of the police force that
                         protects the Pentagon and its personnel. The report reviewed the
                         roles, responsibilities and relationships of DPS; its organization
                         and management; personnel issues; law enforcement opera-
                         tions; and operations support. The report provided 26 specific
                         recommendations to improve DPS. The DPS management
                         accepted these recommendations and is implementing them.

                     •   The Evaluation of Military Criminal Investigative Organi-
                         zations’ Investigative Effectiveness Regarding U.S. Forces
                         Civilians Stationed Overseas examined the ability of the
                         MCIOs to competently investigate crimes committed by this
                         segment of the DoD community. The report concluded that
                         despite the diversity and complexities posed by overseas
                         environments, the MCIOs are able to conduct effective investi-
                         gations of U.S. Forces civilians who commit serious offenses. It
                         also found that relationships and communications between DoD
                         investigators and host nation authorities were in place and were
                         effective.




                                     36
Semiannual Report to the Congress                                                              Chapter Two




                                    •   The Evaluation of Military Criminal Investigative Organization
                                        and Law Enforcement Organization Crime Scene Management
                                        examined crime scene management policies and procedures,
                                        and their implementation by military law enforcement officers
                                        and criminal investigators. The evaluation determined that the
                                        policies and procedures compared favorably to a Best Practices
                                        Template that was developed from standards established by
                                        civilian police agencies, law enforcement accreditation
                                        organizations and police training institutions. Further, site visits
                                        during the evaluation amply validated that DoD police officers
                                        and investigators adhered to these policies and procedures.

AUDITING                    The OIG, DoD, auditors and those of the Military Departments issued
                            286 reports during the reporting period, identifying $1.5 billion in
                            potential monetary benefits and recommending improvements across a
                            wide spectrum of management activities, including the high risk areas
                            discussed in Chapter One.

                            See Appendix A for a list of audit reports, sorted by major subject area.
                            Appendices B and C list OIG, DoD, audit reports with quantifiable
                            monetary benefits and DoD internal audit followup activities,
                            respectively. The DCAA also continued providing essential financial
                            advice to DoD contracting officers, as summarized in Appendix D.

 Export Licensing           At the request of Senator Fred Thompson, Chairman of the Senate
                            Committee on Governmental Affairs, the Inspectors General of the
                            Departments of Commerce, Defense, Energy, State and Treasury, as well
                            as the Central Intelligence Agency, performed a joint review of the
                            export licensing process for dual-use commodities and munitions. Dual-
                            use commodities are goods or services with both military and
                            commercial applications. The results were discussed in a joint report and
                            separate, agency-specific reports.

                            The six Inspectors General reported that the dual-use licensing process
                            would be best served if the Export Administration Act were reenacted. In
                            addition, interagency coordination could be improved, export licensing
                            requirements specifically related to items and information “deemed to be
                            exports” needed clarification and the exporter appeals process should be
                            f o rm alized. T he r eview by the OI G, DoD, i ndicated var i ous
                            administrative deficiencies in the Department’s process for reviewing
                            export license cases and documenting the rationale for advice given to
                            decision makers. Management generally agreed with the findings and the
                            numerous recommendations. The National Defense Authorization Act

                                                    37
Chapter Two                                                 Semiannual Report to the Congress




                   for Fiscal Year 2000 calls for additional annual joint reviews in this
                   subject area. In addition, the Deputy Secretary of Defense has expressed
                   dissatisfaction with the slowness of the license application review
                   procedures and directed a special effort by the involved DoD components
                   to develop a more efficient process. This increasing emphasis on
                   technology transfer issues is likely to create considerable additional
                   workload for OIG auditors and investigators.

 Audit Oversight   The DoD internal audit community has successfully implemented a new
                   audit quality control peer review process, which will supplement direct
                   oversight by the OIG, DoD, of DoD internal audit effectiveness and
                   compliance with applicable standards. Using the peer review guide
                   issued by the President’s Council on Integrity and Efficiency, review
                   teams completed assessments of the Army, Navy and Air Force audit
                   organizations. In all three cases, the results of the review indicated that
                   the audit quality control processes were effective. The OIG, DoD, and
                   DCAA are working together to strengthen the DCAA quality control
                   review process and enable the OIG, DoD, to focus on the most significant
                   audit process issues.

 OIG, DoD,         On April 14, 1999, the Inspector General testified before the Senate
 Testimony         Subcommittee on Readiness and Management Support, regarding
                   Defense Financial Management. The Acting Inspector General testified
                   on the same subject before the House Subcommittee on Government
                   Management, Information and Technology on May 4, 1999. The
                   Assistant Inspector General for Auditing testified to the House
                   Subcommittee on National Security, Veterans Affairs and International
                   Relations on June 16, 1999, on the Prompt Payment Act and DoD
                   disbursing processes. The testimonies recounted problems the
                   Department has experienced in developing auditable financial
                   statements, implementing new automated systems and addressing
                   chronic difficulties such as unmatched disbursements and vulnerability to
                   fraud in payment operations.

                   On June 23, 1999, the Acting Inspector General testified before the
                   Senate Committee on Governmental Affairs on export licensing
                   processes for dual-use commodities and munitions.

INTELLIGENCE       For information regarding specific work performed, see the Classified
REVIEW             Annex to this report.




                                         38
Chapter Two                                    Semiannual Report to the Congress




              This page left blank intentionally




                            40
Semiannual Report to the Congress                                                                    Appendix A


                        APPENDIX A*
REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS



  Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports issued
  by the OIG, DoD.

  Copies of reports may be obtained from the appropriate issuing office by calling:

          OIG, DoD                                      Army Audit Agency
          (703) 604-8937                                (703) 681-9863

          Naval Audit Service                           Air Force Audit Agency
          (703) 681-9126                                (703) 696-8027




                           Summary of Number of Reports by Issue Area
                             April 1, 1999, through September 30, 1999

                                            OIG, DoD           Military Depts.                  Total
 Finance and Accounting                        17                        56                          73
 Information Technology                        69                        10                          79
 Acquisition Oversight                         17                         8                          25
 Logistics                                      4                        42                          46
 Quality of Life                                1                         9                          10
 Construction and Installation                  4                        13                          17
 Support
 International Security                         2                         3                            5
 Environment                                    7                         8                          15
 Intelligence                                   0                        12                          12
 Health Care                                    3                         1                            4
 Total                                        124                      162                          286
 The OIG, DoD, also issued 3 reports on audit oversight reviews (99-6-005, 99-6-007 and 99-6-008). In addition,
 the Naval Audit Service issued 2 oversight reports, the Army issued 1 and the Air Force issued 1.




*Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6).




                                                       A-1
Appendix A                                                          Semiannual Report to the Congress


                                  99-205 Operational Testing and       061-99 Department of the Navy
ACQUISITION                       Evaluation of the F/A-18E/F          Competitive Sourcing Program
PROGRAM AND                       Super Hornet (7/7/99)                (9/16/99)
CONTRACTOR                        99-208 Defense Finance and
                                  Accounting Service Commercial        066-99 Marine Corps
OVERSIGHT                                                              Management of Night Vision
                                  Activities Program (7/8/99)
                                                                       Programs (9/24/99)
IG, DoD                           99-216 Earned Value
                                  Management Support to System         068-99 F/A-18 Aircraft
99-116 DoD Use of Multiple        Acquisition Program Managers
Award Task Order Contracts        (7/21/99)                            Modification and Maintenance
(4/2/99)                                                               Program (9/24/99)
                                  99-224 The Ground Based
99-121 Pilot Program on Sales     Common Sensor Program                Air Force Audit Agency
of Manufactured Articles and      (7/26/99)
Services of Army Industrial                                            97064006 Defense Acquisition
Facilities (4/2/99)               99-236 Independent Review of         Executive Summary Reporting
                                  the Defense Finance and
99-129 Use of the International                                        (7/2/99)
                                  Accounting Service Competitive
Merchant Purchase Authoriza-      Sourcing Study of the Defense
tion Card (4/12/99)               Commissary Agency
99-132 Outsourcing of Defense
                                  Accounting Function (8/19/99)        CONSTRUCTION
Supply Center, Columbus, Bus      99-244 Independent Review of         AND INSTALLATION
and Taxi Service Operations       the Defense Finance and
(4/13/99)                                                              SUPPORT
                                  Accounting Service Competitive
99-150 U.S. Special Operations    Sourcing Study of the
Command Munitions Require-        Transportation Accounting
                                  Function (9/1/99)                    IG, DoD
ments (5/10/99)
                                  99-260 Life-Cycle Manage-            99-198 Defense Logistics
99-154 Defense Contract
Management Command Support        ment for Military Aircraft           Agency Family Housing
to System Acquisition Program     Landing Gear (9/29/99)               Requirements (7/2/99)
Managers (5/12/99)
                                  Army Audit Agency
                                                                       99-223 Defense Base
99-156 Evaluation of the Effect   AA 99-168 Using Credit Cards         Realignment and Closure
of the Boeing, Rockwell, and      For Intra-governmental               Budget Data for the Closure of
McDonnell Douglas Business        Purchases (4/6/99)
Combination on Pension Plans                                           Roslyn Air Guard Station and
and DoD-Funded Pension            AA 99-285 Best Practices For         Realignments to Stewart
Assets (5/13/99)                  Clothing Alteration (6/28/99)        International Airport Air Guard
                                                                       Station, New York (7/26/99)
99-173 Ground Based Common        AA 99-372 Commentary on
Sensor System Fielding (6/2/99)   Network Managers for the             99-239 DoD Unaccompanied
                                  Digitized Battlefield (8/19/99)      Enlisted Personnel Housing
99-195 Contract Actions for
Leased Equipment (6/30/99)        Naval Audit Service                  Requirements Determination
                                                                       (8/20/99)
99-203 Status of                  034-99 Program Executive
Implementation of the Pilot       Officer (Mine Warfare)
Program on Sales of               Financial Management Process         99-250 Construction and
Manufactured Articles and         and the Airborne Mine                Rehabilitation of Reserve
Services of Army Industrial       Countermeasures Program              Component Indoor Small-Arms
Facilities (7/8/99)               Office (4/23/99)                     Ranges (8/20/99)


                                                A-2
Semiannual Report to the Congress                                                          Appendix A


Army Audit Agency                   AA 99-396 Cost-Benefit Study       99-256 Return on Investment
                                    for Libby Range, Fort Belvoir      from DoD Pollution Prevention
AA 99-183 Program Objective         (9/8/99)                           Programs (9/17/99)
Memorandum 98-03
Efficiencies--Utilities Moderni-    AA 99-399 Program Objective        Army Audit Agency
zation Central Heating Plants,      Memorandum 98-03
U.S. Army Aberdeen Proving          Efficiencies--Utilities Moderni-   AA 99-186 Formerly Used
Ground (4/8/99)                     zation Central Heating Plants,     Defense Sites (4/19/99)
                                    Fort Campbell (9/2/99)
                                                                       AA 99-221 Chemical Stockpile
AA 99-184 Program Objective                                            Emergency Preparedness
                                    Air Force Audit Agency
Memorandum 98-03                                                       Program, Aberdeen Proving
Efficiencies--Utilities Moderni-    98052002 Utility Cost              Ground (4/16/99)
zation Central Heating Plants,      Management (5/14/99)
Fort Belvoir, Virginia and Fort                                        AA 99-235 Affirmative
Meade, Maryland (4/2/99)            99052018 Section 912c,             Procurement Program (4/20/99)
                                    Research, Development, Test
AA 99-224 Program Objective         and Evaluation Infrastructure      AA 99-246 Open Burning and
Memorandum 98-03                    Study (9/30/99)                    Open Detonation Site Restora-
Efficiencies--Utilities Moderni-                                       tions (5/7/99)
                                    99052020 Followup Audit,
zation Central Heating Plants,
                                    Facility Condition Codes
Fort Leonard Wood (4/19/99)                                            AA 99-295 Environmental
                                    (6/15/99)
                                                                       Training (6/8/99)
AA 99-225 Program Objective
Memorandum 98-03                                                       Naval Audit Service
                                    ENVIRONMENT
Efficiencies--Utilities Moderni-                                       044-99 Hazardous Waste
zation Central Heating Plants,                                         Disposal Costs (7/8/99)
Fort Riley (5/7/99)                 IG, DoD
                                                                       Air Force Audit Agency
                                    99-160 Hazardous Material
AA 99-232 Program Objective
                                    Management on the Grizzly          99052019 Followup Audit,
Memorandum 98-03
                                    Program (5/17/99)                  Environmental Compliance
Efficiencies--Utilities Moderni-
zation Central Heating Plants,                                         Funds (5/12/99)
                                    99-177 Hazardous Material
Fort Jackson (5/799)                Management for the C/KC-135        99052021 Memorandum
                                    Stratotanker Aircraft (6/4/99)     Report, Hazardous Waste
AA 99-362 Program Objective                                            Disposal Budget Formulation
Memorandum 98-03                    99-221 Hazardous Material          (6/25/99)
Efficiencies--Utilities Moderni-    Management for the T-45
zation Central Heating Plants,      Undergraduate Jet Pilot Training
Fort Eustis (8/12/99)               System (7/21/99)
                                                                       FINANCE AND
AA 99-363 Program Objective
                                    99-242 Hazardous Material          ACCOUNTING
                                    Management for the Black
Memorandum 98-03
                                    Hawk Helicopter Program
Efficiencies--Utilities Moderni-
                                    (8/23/99)                          IG, DoD
zation Central Heating Plants,
Fort Benning (8/12/99)              99-249 Implementation of           99-123 Assessment of the DoD
                                    Innovative Technology for DoD      Biennial Financial Management
AA 99-370 Program Objective         Environmental Cleanup Projects     Improvement Plan (4/2/99)
Memorandum 98-03                    (9/9/99)
Efficiencies--Leases and                                               99-127 Data Supporting the
Disposal of Non-Operation and       99-251 The Army Environ-           FY 1998 DoD Military
Maintenance, Army Excess            mental Program in Germany          Retirement Health Benefits
(8/31/99)                           (9/15/99)                          Liability Estimate (4/7/99)


                                                  A-3
Appendix A                                                          Semiannual Report to the Congress


99-135 Trends and Progress in     99-211 Deposit Reconciliations       AA 99-240 Receipt, Storage,
Reducing Problem Disburse-        at Defense Finance and               and Issue Operations at Retail
ments and In-Transit Disburse-    Accounting Service Columbus          Activities (6/24/99)
ments (4/16/99)                   Center Disbursing Stations
                                  (7/9/99)                             AA 99-255 FY 98 Financial
99-139 Internal Controls and                                           Statements Significant Matters,
Compliance with Laws and          99-226 Interagency Transfer          U.S. Army Corps of Engineers,
Regulations for the FY 1998       Reconciliations at Defense           Civil Works (6/2/99)
Financial Statements of Other     Finance and Accounting Service
Defense Organizations (4/21/99)   Columbus Center Disbursing           AA 99-259 Finance Operations,
                                  Stations (7/28/99)                   U.S. Army, Europe and Seventh
99-142 Defense Logistics                                               Army (6/7/99)
Agency FY 1998 Property,          99-243 Reliability of the
Plant, and Equipment Financial    Military Departments Real
                                  Property Databases for               AA 99-266 Total Environ-
Reporting (4/26/99)                                                    mental Restoration Contracts,
                                  Existence and Completeness
                                  (8/27/99)                            U.S. Corps of Engineers
99-153 Compilation of the                                              (6/25/99)
FY 1998 Army General Fund         99-257 FY 1998 DoD
Financial Statements at the       Superfund Financial                  AA 99-293 Recoupment of
Defense Finance and               Transactions (9/22/99)               Value-Added Taxes Downrange
Accounting Service Indianapolis                                        (6/10/99)
Center (5/12/99)
                                  99-258 Compilation of the FY
                                  1998 Army Working Capital            AA 99-322 Army Working
99-178 DoD Methodology for        Fund Financial Statements            Capital Fund FY 98 Financial
Estimating the Historic Cost of   (9/23/99)                            Statements--Statement of Net
Inventories (6/7/99)                                                   Cost and Statement of Changes
                                  Army Audit Agency                    in Net Position (6/30/99)
99-180 Journal Voucher
Adjustments and Processing of     AA 99-110 Directorate of
                                                                       AA 99-325 Army Working
Data for the FY 1998 Navy         Public Works--Walter Reed
                                                                       Capital Fund FY 98 Financial
General Fund Financial            Army Medical Center (4/16/99)
                                                                       Statements--Inventory and
Statements (6/7/99)                                                    Related Property, Net (6/30/99)
                                  AA 99-196 Corps of Engineers
99-191 Compilation of the FY      Financial Management System
                                  (4/5/99)                             AA 99-395 Army Working
1998 Financial Statements for                                          Capital Fund FY 98 Financial
Other Defense Organizations                                            Statements--Follow-up Issues
(6/24/99)                         AA 99-213 Army's Principal
                                  Financial Statements For Fiscal      (9/7/99)
                                  Year 1998--Financial Reporting
99-200 Management Controls        of Liabilities (4/5/99)              AA 99-420 Army Working
Over Defense Logistics Agency                                          Capital Fund FY 98 Financial
Systems Design Center             AA 99-222 Army's Principal           Statements--Property, Plant and
Conference Funds (7/2/99)         Financial Statements For Fiscal      Equipment (9/30/99)
                                  Year 1998--Financial Reporting
99-209 Data Supporting the        of Real Property and Leases          Naval Audit Service
DoD Environmental Line Item       (4/12/99)
Liability on the FY 1998                                               038-99 Oversight of
Financial Statements (7/9/99)     AA 99-228 Army's Principal           Independent Public Accountant
                                  Financial Statements For Fiscal      Attestation Engagement:
99-210 Stewardship Reporting      Year 1998--Reliability of            Evaluation of Department of the
in the DoD Agency-Wide            Source Information For The           Navy Responses to the Cost
Financial Statements for FY       Financial Reporting of Real          Based Management Tool Data
1998 (7/9/99)                     Property (4/20/99)                   Call (6/22/99)


                                                A-4
Semiannual Report to the Congress                                                           Appendix A


039-99 Assessment of Financial      053-99 Department of the Navy      069-99 Department of the Navy
Internal Controls at Naval          Principal Statements for Fiscal    Principal Statements for Fiscal
Aviation Depot, Jacksonville,       Year 1998: Classes 3 and 4 Plant   Year 1998: Statement of
FL (6/18/99)                        Property (8/18/99)                 Budgetary Resources (9/27/99)

040-99 Assessment of Financial      054-99 Department of the Navy      070-99 Fiscal Year 1998
Internal Controls at Naval          Principal Statements for Fiscal    Financial Internal Controls at
Aviation Depot, Cherry Point,       Year 1998: Fund Balance with       Naval Air Warfare Center
NC (6/18/99)                        Treasury (8/19/99)                 Weapons Division (9/30/99)

041-99 Assessment of Financial      055-99 Fiscal Year 1998            072-99 Fiscal Year 1998
Internal Controls at Naval          Financial Internal Controls at     Financial and Accounting
Aviation Depot, North Island,       Military Sealift Command           Internal Controls at Fleet and
San Diego, CA (6/18/99)             (8/19/99)                          Industrial Supply Center and
                                                                       Defense Distribution Depot,
042-99 Assessment of Marine         057-99 Department of the Navy      Norfolk, VA (9/30/99)
Corps Financial Reporting           Principal Statements for Fiscal
(6/18/99)                           Year 1998: Accounts                Air Force Audit Agency
                                    Receivable (8/24/99)
                                                                       98053003 Inventory and
043-99 Fiscal Year 1998                                                Related Property, Fiscal Year
                                    058-99 Department of the Navy
Material Financial Control                                             1998 (5/14/99)
                                    Principal Statements for Fiscal
System (6/30/99)
                                    Year 1998: Classes 1 and 2 Plant
                                    Property (8/24/99)                 98053004 Managerial Cost
046-99 Department of the Navy                                          Accounting and Statement of
Principal Statements for Fiscal     060-99 Department of the Navy      Net Cost, Fiscal Year 1998
Year 1998: National Defense         Principal Statements for Fiscal    (9/24/99)
Property, Plant, and Equipment      Year 1998: Statement of Net
Deferred Maintenance (7/15/99)      Cost and Required Supple-          98053008 Supplementary
                                    mental Stewardship Information     Stewardship Reporting, Fiscal
048-99 Fiscal Year 1998             (9/14/99)                          Year 1998 (9/22/99)
Department of the Navy
Principal Statements and            062-99 Fiscal Year 1998            98053009 Military Pay, Fiscal
Working Capital Fund                Financial Management Feeder        Year 1998 (9/27/99)
Consolidated Financial              Systems (9/24/99)
Statements Eliminating Entries                                         98053010 Civilian Pay, Fiscal
(7/22/99)                           063-99 Fiscal Year 1998            Year 1998 (9/28/99)
                                    Financial and Accounting
049-99 Department of the Navy       Internal Controls at Fleet and     98054007 Personnel Data
Principal Statements for Fiscal     Industrial Supply Center and       System - Military Financial
Year 1998: Inventory and            Defense Distribution Depot, San    Controls (5/14/99)
Related Property, Net (7/27/99)     Diego, CA (9/22/99)
                                                                       98054015 Controls Within the
050-99 Department of the Navy       064-99 Department of the Navy      Automated Computation Travel
Principal Statements for Fiscal     Principal Statements for Fiscal    System (6/14/99)
Year 1998: Real Property            Year 1998: Environmental
Deferred Maintenance (7/30/99)      Cleanup Liabilities (9/22/99)      98068002 Air Force Depot
                                                                       Maintenance Property, Plant,
051-99 Public Works Center          065-99 Fiscal Year 1998            and Equipment, Fiscal Year
Detachment, Philadelphia            Financial and Accounting           1998 (7/16/99)
Charges for Naval Inventory         Internal Controls at Defense
Control Point Philadelphia Base     Distribution Depot and Marine      98068003 Supply Management
Operating Support Services          Corps Air Station, Cherry Point,   Activity Group Retail Sales
(7/28/99)                           NC (9/23/99)                       (4/12/99)


                                                  A-5
Appendix A                                                           Semiannual Report to the Congress


98068005 Inventory                                                      99-126 Year 2000 Issues
Accounting Adjustments, Air         HEALTH CARE                         Within the U.S. Pacific
Force Working Capital Fund,                                             Command’s Area of
Fiscal Year 1998 (7/15/99)                                              Responsibility: Strategic
                                    IG, DoD                             Communications Organizations
                                                                        (4/6/99)
98068017 Information Systems
Activity Group, Air Force           99-119 Controls Over Case-
                                    Related Material at the Armed       99-128 Computer Security for
Working Capital Fund, Internal                                          the Defense Civilian Pay System
                                    Forces Institute of Pathology
Controls (4/8/99)                                                       (4/8/99)
                                    (4/2/99)

98068023 Memorandum                                                     99-130 Preparation of the Sense
                                    99-147 Followup Audit of the        and Destroy Armor Munition for
Report, Cash Receipts and
                                    European Theater C-9A Aircraft      the Year 2000 (4/12/99)
Disbursement Processing, Depot      Flying Hour Program (5/5/99)
Maintenance Activity Group,
                                                                        99-133 Year 2000 Compliance
Air Force Working Capital Fund
                                    99-152 Overlapping Inpatient        of the Global Transportation
(7/16/99)                                                               Network (4/13/99)
                                    Treatment Expenditures for
                                    DoD Beneficiaries Enrolled in
98068025 Airlift Services           Medicare Health Maintenance         99-134 Year 2000 Compliance
Division, Property, Plant, and      Organization Plans (5/13/99)        of Selected Air Mobility
Equipment Accounts, Air Force                                           Command Systems (4/13/99)
Working Capital Fund, Fiscal        Air Force Audit Agency
Year 1998 (4/13/99)                                                     99-136 Government-Furnished
                                    99051002 Eligibility of             Equipment Year 2000 Issues for
                                    Military Dependents for             Army Chemical Demilitariza-
98068038 Contract Depot
                                                                        tion (4/16/99)
Maintenance Financial               Medical Services (FOUO)
Processing, Depot Maintenance       (9/23/99)
                                                                        99-140 Management of DoD
Activity Group, Air Force                                               Long-Haul Telecommunications
Working Capital Fund, Fiscal                                            Requirements (4/21/99)
Year 1998 (7/12/99)                 INFORMATION
                                                                        99-141 Year 2000 Issues
                                    TECHNOLOGY                          Within U.S. Central Command
98068039 Accounting for
Inventory Valuation Changes,        RESOURCES                           and the Service Components
Fiscal Year 1998 (7/14/99)                                              (4/22/99)

                                    IG, DoD                             99-143 Preparation of the
98068040 Air Force Working                                              Wide-Area Munition for the
Capital Fund, Fiscal Year 1998,     99-122 Year 2000 Readiness          Year 2000 (4/30/99)
Statement of Budgetary              Reporting (4/2/99)
Resources (9/24/99)                                                     99-144 Guidance for the DoD
                                                                        Year 2000 Quarterly Report
                                    99-124 Year 2000 Compliance
99053011 Accounting for                                                 (4/30/99)
                                    of the Counterintelligence/
Selected Assets and Liabilities -   Human Intelligence Automated
Accounts Receivable and                                                 99-145 Year 2000 Issues
                                    Tool Set (4/6/99)
Accounts Payable, Fiscal Year                                           Within U.S. European
                                                                        Command and Its Service
1998 (9/30/99)                      99-125 Year 2000 Issues             Components (4/30/99)
                                    Within the U.S. Pacific
99054007 Annual Review of           Command’s Area of                   99-146 Year 2000 Compliance
Office of Special Investigations    Responsibility: U.S. Forces         of the Seawolf Class Submarine
Contingency Funds (9/1/99)          Korea (4/7/99)                      Combat System (5/3/99)


                                                  A-6
Semiannual Report to the Congress                                                          Appendix A


99-148 Preparation of the Air       99-169 Year 2000 Compliance       99-194 Year 2000 Conversion
Force Segments of the Joint         of the Navy Pioneer Unmanned      Program at the Army National
Surveillance Target Attack          Aerial Vehicle ((5/24/99)         Guard (6/29/99)
Radar System for the Year 2000
(5/5/99)                            99-170 Year 2000 Contingency      99-196 Year 2000 Computing
                                    Plans for Surface Ship Hull,      Issues Related to Health Care in
99-151 Year 2000 Conversion         Mechanical, and Electrical        DoD – Phase II (6/29/99)
Program for the Air Force           Systems (5/24/99)
Reserve (5/11/99)                                                     99-197 Status of Resources and
                                    99-171 Space and Naval            Training System Year 2000
99-157 Year 2000 Compliance         Warfare Systems Command           Issues (6/29/99)
of the Standoff Land Attack         Preparations for Year 2000
Missile (5/14/99)                   Battle Group Systems Integra-     99-199 Year 2000 Conversion
                                    tion Testing (5/26/99)            Program for Defense Critical
99-158 Year 2000 Status of the                                        Suppliers (7/2/99)
AN/ARC-220 Nap-of-the-Earth         99-172 Year 2000 Status of the
Aircraft Communication System       Army Total Asset Visibility       99-202 Year 2000 Compliance
(5/14/99)                           System (5/28/99)                  of Selected Mission Critical
                                                                      Command, Control, and
99-161 Year 2000 Computing          99-176 Impact of Year 2000        Communications Systems
Issues Related to the Defense       Issues on the Aegis Weapon        Managed by the Defense
Fuels Automated Management          System (6/2/99)                   Information Systems Agency
System (5/17/99)                                                      (7/2/99)
                                    99-179 Status of Year 2000
99-162 Year 2000 Status of the                                        99-204 Year 2000 Status of the
                                    Compliance at the Defense
Advanced Medium Range Air-                                            Combat Control System Mark 2
                                    Commissary Agency (6/7/99)
to-Air Missile (5/17/99)                                              Block 1 A/B (7/9/99)
                                    99-181 Year 2000 Issues
99-163 Year 2000 Issues                                               99-207 Year 2000 Compliance
                                    Relating to Security Assistance
Within the U.S. Pacific                                               of the Theater Deployable
                                    and Foreign Military Sales
Command’s Area of Responsi-                                           Communications System
                                    (6/9/99)
bility: Host Nation Support to                                        (7/7/99)
U.S. Forces Korea (5/17/99)
                                    99-182 Defense Information        99-213 Year 2000 Compliance
99-164 Year 2000 Conversion         Systems Agency Management         of Selected Headquarters
Program for the Pentagon and        of Mainframes (6/9/99)            Standard Systems Group
DoD Leased Facilities (5/21/99)                                       Systems (7/14/99)
                                    99-183 Acquisition Manage-
99-165 Year 2000 Compliance         ment of the Defense Commis-       99-215 Year 2000 Computing
of the Standard Army Mainte-        sary Information System           Issues: Defense Logistics
nance System-Rehost (5/24/99)       (6/11/99)                         Agency - Standard Automated
                                                                      Materiel Management System
99-166 Initial Implementation       99-185 Year 2000 Conversion       (7/16/99)
of the Standard Procurement         Within the Defense Security
System (5/26/99)                    Service (6/11/99)                 99-220 Computer Equipment
                                                                      Acquisitions for the Defense
99-167 Year 2000 Compliance         99-189 Year 2000 Compliance       Information Systems Agency
of the Trident Submarine            of the Standard Army Ammu-        Megacenters (7/21/99)
Command and Control System          nition System-Modernization
(5/24/99)                           (6/18/99)                         99-227 Year 2000 Posture of
                                                                      Mid-Tier Computer Systems
99-168 Year 2000 Compliance         99-190 Year 2000 Compliance       Processing Defense Finance and
of the Navy Theater Mission         of the Worldwide Port System      Accounting Service Data
Planning Center (5/24/99)           (6/18/99)                         (7/29/99)


                                                  A-7
Appendix A                                                         Semiannual Report to the Congress


99-228 Year 2000 Status of the   99-247 Summary Of DoD Year           Air Force Audit Agency
Commodity Command Standard       2000 Audit and Inspection
                                                                      98058019 Use of Selected
System (8/6/99)                  Reports III (9/3/99)
                                                                      Government Telephone Service
                                                                      (5/17/99)
99-229 Preparation of the        99-252 Year 2000 Status of the
Global Positioning System for    Centralized Accounting and           98058030 Single-Line
Year 2000 (8/9/99)               Financial Resource Manage-           Telephone Service (4/19/99)
                                 ment System, Defense Threat
99-231 Year 2000 Application     Reduction Agency (9/15/99)           98066004 Global Combat
Testing at the Defense Finance                                        Support System Award Fee
and Accounting Service           99-253 Audit of the Environ-         Management (5/13/99)
(8/10/99)                        mental Security Year 2000 End-
                                 To-End Tests (9/15/99)               98066013 Followup Audit,
99-232 Year 2000 Issues                                               Configuration Management of
Within U.S. Atlantic Command     99-254 Year 2000 Issues              Mission Critical Computer
and the Service Components       Within the U.S. Pacific              Resources Within Air Force
(8/16/99)                        Command’s Area of                    Materiel Command (4/12/99)
                                 Responsibility: Operational
99-234 Year 2000 Status of the   Evaluation Planning by U.S.          98066024 Certification of
Nuclear Inventory Management     Forces Korea (9/16/99)               Standard Systems (9/30/99)
and Cataloging System
(8/19/99)                        99-255 Year 2000-Sensitive           99066005 Information
                                 Property Reutilized,                 Protection - Implementing
99-235 Year 2000 Status of the   Transferred, Donated, or Sold        Controls Over Known
Defense Threat Reduction         (9/15/99)                            Vulnerabilities in Air Mobility
Agency Nuclear Weapon Status                                          Command Computers (FOUO)
Information Systems (8/19/99)    99-259 Defense Civilian Pay          (9/27/99)
                                 Year 2000 End-To-End Event
99-238 Defense Information       Plans (9/28/99)                      99066015 Followup Audit,
Systems Agency Megacenter                                             Information Protection -
Support of the Year 2000                                              Implementing Controls Over
                                 99-261 Preparation of the Joint
Functional End-to-End Testing                                         Known Vulnerabilities in Air
                                 Surveillance Target Attack
Requirements (8/20/99)                                                Combat Command Computers
                                 Radar System Common Ground
                                                                      (FOUO) (9/29/99)
                                 Station for the Year 2000
99-240 Year 2000 Issues          (9/29/99)
Within U.S. Special Operations
Command and Its Component        99-262 Audit of the Year 2000        INTELLIGENCE
Commands (8/23/99)               Mission-Critical Non Date-
                                 Dependent Systems (9/30/99)
99-241 Reported Year 2000                                             Army Audit Agency
System Certification Levels      Army Audit Agency                    AA 99-230 Management of
(8/23/99)                                                             Controlled Cryptographic Items,
                                 AA 99-127 Information                U.S. Army Intelligence Center
99-245 Year 2000 Issues          Systems Security, U.S. Army          and Fort Huachuca (4/23/99)
Within the U.S. Pacific          Intelligence Center and Fort
Command’s Area of Responsi-      Huachuca (6/4/99)                    AA 99-231 Management of
bility: Operational Evaluation                                        Controlled Cryptographic Items,
Planning at U.S. Pacific         AA 99-128 Information                U.S. Army Signal Command
Command Headquarters             Systems Security, U.S. Army          (5/11/99)
(9/2/99)                         Signal Command (5/7/99)
                                                                      AA 99-252 Bosnia Travel
99-246 Defense Contractor and    AA 99-302 Telecommunica-             Payments, U.S. Army Civil
Vendor Pay Year 2000 End-To-     tions Support Downrange              Affairs and Psychological
End Testing (9/3/99)             (7/13/99)                            Operations Command (6/18/99)


                                               A-8
Semiannual Report to the Congress                                                            Appendix A


AA 99-256 Management of             99-192 Depot Maintenance            AA 99-318 Cost of Spares
Controlled Cryptographic Items,     Capacity and Utilization            Efficiency, U.S. Army Materiel
U.S. Special Operations             Measurement (6/23/99)               Command (6/30/99)
Command (5/21/99)
                                    99-193 C-17 Landing-Gear            AA 99-320 Inventory-Related
AA 99-271 Management of             Durability and Parts Support        Logistics Efficiencies Operating
Controlled Cryptographic Items,     (6/24/99)                           and Support Cost Reduction
XVIII Corps and Fort Bragg                                              Program (6/30/99)
(6/22/99)                           Army Audit Agency
                                                                        AA 99-356 Audit of the
AA 99-319 Management of             AA 99-190 Audit of the              Military Training Specific
Controlled Cryptographic Items,     Military Training Specific          Allotment Process (8/24/99)
U.S. Army Aviation and Missile      Allotment Process, Fort Bliss
Command (7/9/99)                    (4/1/99)                            AA 99-389 Use of Army
                                                                        Workload and Performance
Naval Audit Service                 AA 99-197 Deputy Chief of           System in the Total Army
                                    Staff For Personnel Efficiencies-   Analysis 07 Process (9/30/99)
032-99 Special Operations           Program Objective Memoran-
Fund (CLASSIFIED) (4/19/99)         dum 98-03 (4/13/99)                 AA 99-390 Protocol and Public
071-99 Reimbursable Work                                                Affairs Efficiencies (9/29/99)
                                    AA 99-216 Audit of the
Orders (CLASSIFIED)                 Military Training Specific
(9/30/99)                                                               AA 99-400 Retail Supply
                                    Allotment Process, Fort Carson      Operations, XVIII Airborne
                                    (5/5/99)                            Corps and Fort Bragg (9/10/99)
Air Force Audit Agency
98058001 National Air               AA 99-217 Audit of the              AA 99-406 Retail Supply
Intelligence Center Financial       Military Training Specific          Operations (9/15/99)
Management (4/13/99)                Allotment Process, Fort Leonard
                                    Wood (4/20/99)                      AA 99-411 Materiel Release
98058036 Intelligence Service                                           (9/30/99)
Contracts (7/13/99)                 AA 99-218 Audit of the
                                    Military Training Specific          Naval Audit Service
99058010 Intelligence               Allotment Process, Fort Stewart
Contingency Funds, Fiscal Year      (5/5/99)                            033-99 Requirements and
1998 (4/13/99)                                                          Student Input Planning for “F”
                                    AA 99-233 Modification              School Courses (4/16/99)
99058012 Senior Year and            Tables of Organization and
Distributed Common Ground           Equipment (6/30/99)                 036-99 Civil Engineer Support
System Management (9/17/99)                                             Equipment Assigned to Naval
                                    AA 99-291 Maintenance and           Mobile Construction Battalions
                                    Repair of the Prepositioned         (5/19/99)
                                    Fleet, National Training Center
LOGISTICS                           (6/15/99)                           037-99 Navy Management of
                                                                        Heavy Equipment (5/26/99)
IG, DoD                             AA 99-298 Follow-Up Audit of
                                    Aviation Maintenance (6/30/99)      047-99 Torpedo Boat and Ferry
99-159 Interservice Availability                                        Service Requirements at
of Multiservice Used Items          AA 99-300 Retail Supply             Selected Activities (7/16/99)
(5/14/99)                           Management (6/30/99)
                                                                        052-99 Marine Corps Instructor
99-184 Financial Impacts of         AA 99-301 Logistics                 Requirements (9/3/99)
Defense Logistics Agency            Efficiencies--Administrative
Electronic Catalog and Office       and Production Lead Time, U.S.      059-99 AEGIS Common
Supplies Initiatives on Retail      Army Materiel Command               Equipment (ACE) Program
Level Purchasing (6/11/99)          (6/18/99)                           (9/7/99)


                                                  A-9
Appendix A                                                      Semiannual Report to the Congress


067-99 Measuring Personnel      99061020 Followup Audit,           AA 99-387 Morale, Welfare
Tempo (9/24/99)                 Spares Buy and Repair              and Recreation Activities--
                                Requirements for Items             Financial Controls, Fort Bliss
Air Force Audit Agency          Repaired by Multiple Sources       Centennial Club (8/25/99)
                                (8/19/99)
97064016 Aircraft Programmed                                       AA 99-416 Billeting Financial
Depot Maintenance Require-      99061023 Followup Audit,           Operations (9/29/99)
ments (4/9/99)                  Standard Base Supply System
                                Data Interfaces (9/30/99)          AA 99-418 Billeting
                                                                   Requirements (9/30/99)
98061004 F100-PW-229 Spare
Engine and Module Require-      99058001 Logistics Force
                                Packaging System (9/30/99)         Naval Audit Service
ments (6/9/99)
                                                                   035-99 Uniform Resource
98061028 Air Force Reclama-     99058006 Selected War and          Demonstration Project at
tion Program (8/13/99)          Mobilization Planning Factors      Selected Morale, Welfare, and
                                (9/29/99)                          Recreation Activities (5/11/99)
98062003 Landing Gear Repair                                       Air Force Audit Agency
                                99058015 Designed Opera-
Operations (4/27/99)
                                tional Capability Statements
                                                                   98051019 Memorandum
                                (9/8/99)
98062013 Inventory Items                                           Report, Uniform Resource
Awaiting Depot Maintenance                                         Demonstration Test Project
(5/13/99)                                                          (6/29/99)
                                QUALITY OF LIFE
98062017 Depot Paint and
Depaint Operations (9/22/99)                                       INTERNATIONAL
                                IG, DoD
                                                                   SECURITY
98062019 C-141 Modification     99-206 Summary Report on the
Programs (9/30/99)              Demonstration Project for
                                Uniform Funding of Morale,         IG, DoD
98062020 Structural Integrity   Welfare, and Recreation            99-174 Depot-Level Repair of
Programs for Operational Air-   Activities (7/8/99)                Foreign Military Sales Items
craft (8/13/99)                                                    (6/3/99)
                                Army Audit Agency
99051017 Air Force Reserve                                         99-186 Review of the DoD
                                AA 99-223 Nonappropriated          Export Licensing Processes for
Command Special Tours of        Fund Activities Use of IMPAC
Active Duty (9/28/99)                                              Dual-Use Commodities and
                                Cards (4/29/99)                    Munitions (6/18/99)
99061002 Memorandum             AA 99-351 Audit of Impact of       Army Audit Agency
Report, Reparable/Serviceable   Military Treatment Facility
Item Pipeline Data Analysis     Downsizing on Army Installa-       AA 99-297 DOD Support to the
Tool Agile Logistics Data       tions, U.S. Army Medical           NATO Summit (8/16/99)
Accuracy (4/15/99)              Command (7/15/99)
                                                                   AA 99-342 Army's FY 98
99061011 Memorandum                                                Billings to the Multinational
                                AA 99-375 Billeting
Report, Aircraft Spare Parts                                       Force and Observers (6/30/99)
                                Operations, U.S. Army and
Inventory Reduction (6/18/99)   Seventh Army (8/17/99)
                                                                   Air Force Audit Agency
99061017 Followup Audit,        AA 99-384 Billing and              97062009 Software Support for
Training Munitions Manage-      Accounting Practices, Brooke       Foreign Military Sales of F-16
ment (9/23/99)                  Army Medical Center (9/2/99)       Aircraft (4/14/99)


                                             A-10
Semiannual Report to the Congress                                                       Appendix A


                                    99-6-007 Air Force Audit         Naval Audit Service
AUDIT OVERSIGHT                     Agency Process for Determining
                                                                     045-99 Quality Control Review
REVIEWS                             Audit Requirements and
                                                                     of Supervision (7/26/99)
                                    Requesting Resources (8/20/99)
                                                                     056-99 Peer Review of Air
IG, DoD                             99-6-008 PriceWaterhouse
                                                                     Force Audit Agency (8/18/99)
                                    Coopers L.L.P., and Stanford
99-6-005 Army Audit Agency          University, Fiscal Year Ended    Air Force Audit Agency
Process for Determining Audit       August 31, 1997 (9/8/99)
Requirements and Requesting                                          99023012 Peer Review of
Resources (5/27/99)                 Army Audit Agency                Army Audit Agency (8/9/99)
                                    AA99-323 Peer Review of
                                    Naval Audit Service (8/9/99)




   Our report on the status of OIG, DoD, reports over 12 months old in
   which management decisions have been made but final action has not
   been taken has been provided to the Department and is available upon
   request.




                                                 A-11
Appendix A                                        Semiannual Report to the Congress




             This page left blank intentionally




                           A-12
Semiannual Report to the Congress                                                              Appendix B




                              APPENDIX B*
         INSPECTOR GENERAL, DoD, AUDIT REPORTS ISSUED CONTAINING
               QUANTIFIABLE POTENTIAL MONETARY BENEFITS

                                                                       Potential Monetary Benefits

                                                                      Disallowed        Funds Put to
                  Audit Reports Issued                                  Costs1           Better Use

99-147 Followup Audit of the European Theater C-9A                         N/A            $8,600,000
Aircraft Flying Hour Program (5/5/99)
99-152 Overlapping Inpatient Treatment Expenditures for                    N/A           271,000,000
DoD Beneficiaries Enrolled in Medicare Health
Maintenance Organization Plans (5/13/99)
99-159 Interservice Availability of Multiservice Used                      N/A            10,800,000
Items (5/14/99)
99-208 Defense Finance and Accounting Service                              N/A               287,000
Commercial Activities Program (7/8/99)
99-218 Sole-Source Noncommercial Spare Parts Orders                        N/A            53,700,000
on a Basic Ordering Agreement (7/27/99)
99-223 Defense Base Realignment and Closure Budget                         N/A             6,000,000
Data for the Closure of Roslyn Air Guard Station and
Realignments to Stewart International Airport Air Guard
Station, New York (7/26/99)
Totals                                                                          0       $350,387,000
*Fulfills the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6).
1
There were no OIG audit reports during the period involving disallowed costs.




                                                         B-1
Appendix B                                        Semiannual Report to the Congress




             This page left blank intentionally




                                    B-2
Semiannual Report to the Congress                                                                      Appendix C



                                              APPENDIX C*
                                          FOLLOWUP ACTIVITIES




          DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
             RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1
                                  ($ in thousands)

                                                     Number Funds  Put to
                           Status                             Better Use
A.      For which no management decision had been made by the                                29      $2,307,900
        beginning of the reporting period.
B.      Which were issued during the reporting period.                                     130          350,387
        Subtotals (A+B)                                                                    159        2,658,287
C.      For which a management decision was made during the reporting                      129        2,624,987
        period.
          (i)   dollar value of recommendations that were agreed to by                                     287
                management
                  - based on proposed management action                                                    287
                  - based on proposed legislative action
          (ii) dollar value of recommendations that were not agreed to by                            2,624,7002
                management
D.      For which no management decision has been made by the end of the                     30         33,300
        reporting period.
        Reports for which no management decision was made within 6                               5        7,900
        months of issue (as of September 30, 1999).3
1There  were no OIG audit reports during the period involving questioned costs.
2
  OIG Report No. 99-043, “Navy Quantitative Requirements for Munitions,” issued December 3, 1998, represents
 $2.3 billion of this total. The report recommended that the Navy limit munitions requirements to the war reserve
 requirement, and testing, training and current operational requirements. The Navy agreed to continue to work
 with OSD and the Joint Staff to develop requirements to support the Commanders in Chief and the needs of a
 forward deployed Navy and Marine Corps. An OIG summary report will address the broader issues covering the
 entire DoD munitions requirements determination process.
3OIG Report No. 99-064, “Basis for Recent Policy Changes to the Drug Testing Rate for DoD Civilians,” issued

 December 31, 1998; OIG Report No. 99-102, “Chemical and Biological Warfare Defense Resources in the U.S.
 European Command,” issued March 4, 1999; OIG Report No. 99-106, “Commercial Life Insurance Sales
 Procedures in DoD,” issued March 10, 1999; and OIG Report No. 99-107, “Computer Security for the Defense
 Civilian Pay System,” issued March 16, 1999, had no management decisions made within 6 months of issuance
 and mediation is ongoing. OIG Report No. 99-023, “Procurement of Military Clothing and Related Items by
 Military Organizations,” was issued October 29, 1998, and decided November 1, 1999.



    *Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(8)(9) and Section 5(b)(2)(3).




                                                          C-1
Appendix C                                                                  Semiannual Report to the Congress




                    STATUS OF ACTION ON CENTRAL INTERNAL AUDITS1
                                        ($ in thousands)
                                                         Number of Funds Put to
                       Status of Action                   Reports   Better Use
   OIG, DoD
   Action in Progress - Beginning of Period                                          295               $147,794
   Action Initiated - During Period                                                  129                    287
   Action Completed - During Period                                                  116                151,911
   Action in Progress - End of Period                                                308                 13,3792
   Military Departments
   Action in Progress - Beginning of Period                                          367              5,249,319
   Action Initiated - During Period                                                  145                314,554
   Action Completed - During Period                                                  152                464,658
   Action in Progress - End of Period                                                360              4,740,789
   1There
          were no audit reports during the period involving questioned costs.
   2
    On certain reports (primarily from prior periods) with audit estimated monetary benefits of $587 million, it
    has been agreed that the resulting monetary benefits can only be estimated after completion of management
    action, which is ongoing.




                                                       C-2
Semiannual Report to the Congress                                                                     Appendix D




                                       APPENDIX D
                              CONTRACT AUDIT REPORTS ISSUED1
                                       ($ in millions)
                                                                               Audit            Funds Put to
      Type of Audit            Reports Issued           Examined             Exceptions          Better Use
 Incurred Costs2                        17,303               $56,164.9          $1,989.9                $282.7
 Forward Pricing Proposals               5,396                43,150.3                --               2,258.3
 Cost Accounting                         2,152                   152.1              95.6                    --
 Standards
 Defective Pricing3                        835                      --             115.7                   --
 Other4                                      6                      --                --                   --
 Totals                                 25,692               $99,467.3          $2,201.2             $2,540.0
 1Because  of limited time between availability of management information system data and legislative reporting
  requirements, there is minimal opportunity for the DCAA to verify the accuracy of reported data. Accordingly,
  submitted data is subject to change based on subsequent DCAA authentication.
 2Incurred cost funds put to better use are from the cost avoidance recommended in economy and efficiency

  audits of contractor operations.
 3Defective pricing dollars examined are not reported because they are considered a duplication of forward

  pricing dollars reported as examined.
 4Relates to suspected irregular conduct cases.




                       Waivers of Advisory and Assistance Service Contracts
        A review is made of each waiver of advisory and assistance services contracts
        granted by the Department. This review is required by Section 802, Defense
        Authorization Act for Fiscal Year 1990.

        The Department made no waivers during the period and therefore, no reviews were
        made by the OIG.




                                                       D-1
Appendix D                                        Semiannual Report to the Congress




             This page left blank intentionally




                            D-2
                             The Joseph H. Sherick Award
The Joseph H. Sherick Award, named after the first DoD Inspector General, is presented annually. The
award recognizes the actions and accomplishments of an individual that most strongly support and foster
the mission and functions of the OIG. Mr. William H. Reed, Director, Defense Contract Audit Agency
(DCAA), received the award from the Acting Inspector General on October 27, 1999. The citation for the
award follows:

Mr. William H. Reed is awarded the Joseph H. Sherick Award in recognition of his outstanding leadership
in the Federal audit community and his invaluable support to the OIG’s criminal investigations and audits.
As the Director of DCAA, Mr. Reed has distinguished himself by skillfully leading the largest audit
activity in the Federal Government through a period of particular turbulence and challenge. Despite severe
budget reductions at his agency, Mr. Reed has achieved an impressive record of high productivity, good
morale and utmost professionalism while providing vital financial advice to Government contracting
officials. During his tenure as Director, audits have resulted in approximately $65 billion in recoveries and
cost avoidance. In addition, Mr. Reed consistently provided timely and highly professional audit support to
dozens of procurement fraud investigations by the Defense Criminal Investigative Service and other law
enforcement agencies.

Mr. Reed is one of the foremost experts in the country on contract financial issues and contract auditing.
As such, he has furnished sound advice to lawmakers and DoD decision makers on vital aspects of
acquisition reform. His expertise, integrity, common sense approach to contentious matters and
willingness to discuss those matters reasonably with even the most vociferous critics has won tremendous
respect for him in both industry and Government circles. The OIG, DoD, relies heavily on him as a
superbly reliable and effective ally in efforts to protect the best interest of the DoD in acquisition matters.

The Joseph H. Sherick Award is appropriate recognition for Mr. Reed’s strong commitment to excellence
and his impressive achievements as the head of a dynamic and critically important component of the DoD.




         From left: Don Mancuso, Acting IG; William Reed, Director, DCAA; Joseph Sherick, Former Inspector
                      General, DoD; Robert Lieberman, Assistant Inspector General for Auditing
